<html>
<title> - WHAT DOES A SECURE MARITIME BORDER LOOK LIKE?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
             WHAT DOES A SECURE MARITIME BORDER LOOK LIKE?
=======================================================================

                                HEARING

                               BEFORE THE 

                         SUBCOMMITTEE ON BORDER
                         AND MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2013

                               __________

                           Serial No. 113-45

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                    U.S. GOVERNMENT PRINTING OFFICE
87-375 PDF                    WASHINGTON : 2014
----------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fc9b8c93bc9f898f889499908cd29f9391d2">[email&#160;protected]</a>  








                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Jeff Duncan, South Carolina          Sheila Jackson Lee, Texas
Tom Marino, Pennsylvania             Loretta Sanchez, California
Steven M. Palazzo, Mississippi       Beto O'Rourke, Texas
Lou Barletta, Pennsylvania           Tulsi Gabbard, Hawaii
Chris Stewart, Utah, Vice Chair      Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
              Paul L. Anstine, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security...................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Border and Maritime Security...................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Rear Admiral William D. Lee, Deputy for Operations Policy and 
  Capabilities, U.S. Coast Guard, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
General Randolph D. Alles, Assistant Commissioner, Office of Air 
  and Marine, U.S. Customs and Border Protection, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Stephen L. Caldwell, Director, Maritime and Security Coast 
  Guard Issues, Homeland Security and Justice Team, U.S. 
  Government Accountability Office:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Captain Marcus Woodring, USCG (Ret.), Managing Director, Health, 
  Safety, Security, and Environmental Branch, Port of Houston 
  Authority:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30


             WHAT DOES A SECURE MARITIME BORDER LOOK LIKE?

                              ----------                              


                       Tuesday, November 19, 2013

             U.S. House of Representatives,
      Subcommittee on Border and Maritime Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Duncan, Marino, Palazzo, 
Jackson Lee, O'Rourke, and Gabbard.
    Mrs. Miller. The Committee on Homeland Security, 
Subcommittee on Border and Maritime Security, will come to 
order.
    The subcommittee is meeting today to examine the 
characteristics of a secure maritime border.
    We are pleased, certainly, to be joined by a very 
distinguished panel, most of whom have been here before, some 
have been, at any rate, of witnesses today. We have Rear 
Admiral William ``Dean'' Lee, who is the deputy commandant for 
Operations Policy and Capabilities for the U.S. Coast Guard. We 
have General Randolph D. Alles, who is the assistant 
commissioner for the Office of Air and Marine at the United 
States Customs and Border Protection. Mr. Steve Caldwell is the 
director of Maritime and Security Coast Guard Issues at the 
Government Accountability Office. Captain Marcus Woodring is 
the managing director for Security at the Port of Houston 
Authority.
    We welcome you all back.
    Mr. Woodring, we were just chatting that you had the Vice 
President yesterday at your port and then jumped the airplane. 
So we were very pleased that you were able to join us again 
today.
    Earlier this year, this subcommittee convened a hearing to 
ask, what does a secure border look like? During that hearing, 
we exclusive examined security along our Nation's land borders.
    An often-neglected aspect of border security, what we do in 
the maritime environment is equally as important and as 
critical to our overall border security approach. To minimize 
its importance is certainly a mistake for our Nation. Any point 
of weakness in our border security defenses can and will be 
exploited. So it is incumbent on this committee to ensure that 
the Coast Guard and the CBP have a plan to secure the very vast 
maritime border.
    The framework of the subcommittee used earlier this year 
can be applied to the maritime environment: What does a secure 
maritime border look like? How do we get there? How do we 
measure success?
    Millions of square miles of ocean make those questions 
dependent on achieving situational awareness, or, to use the 
Coast Guard's term of art, maritime domain awareness. 
Intelligence-driven operations will have to become the 
cornerstone of maritime operations so that we focus our limited 
maritime resources in the most productive and efficient way. 
That is especially true in an era of smaller budgets.
    In many instances, due to the vastness of the maritime 
domain, intelligence may be available but we just do not have 
the assets or the personnel capable to respond in time. Beyond 
using intel to focus operations, the Department of Homeland 
Security components that are in the same geographical area must 
coordinate and work together to increase effectiveness and to 
make the best use of the resources Congress provides.
    Last Congress, at the urging of this subcommittee, the 
Department released the Maritime Operations Coordinating Plan, 
or the MOCP, that established regional coordinated mechanisms 
for the Department of Homeland Security agencies with a role in 
maritime security, including the Coast Guard, CBP, and ICE. We 
will be interested to hear from the witnesses today how that 
structure is working and if Congress can help provide more 
robust direction to keep moving toward consolidation 
operational planning and coordination.
    Threats to the border have evolved in the maritime 
environment. As progress is made along the land borders, 
illicit activity is driven off the coast. Drug cartels and 
others who seek to do us harm will seek out the point of least 
resistance. The recent surge of panga boats carrying drugs off 
the coast of California is a very clear example of this. On 
average, there is now a known panga event every 4 days, and, of 
course, those are just the ones that we know about. Although we 
haven't seen a resurgence of semi-submersibles, the threat that 
they are being used and we fail to detect them is a very real 
and present danger.
    Achieving situational awareness in the maritime environment 
requires persistent surveillance, which is why we were 
disappointed to learn that we have used the maritime version of 
the Predator B only a handful of times off the coast of 
California, when it seems that this would be a very important 
mission for a maritime-enabled UAV.
    Other technologies must also play a role, especially as 
panga boats move farther offshore and up the coast, trying to 
evade our cutters and shore-based intercepters. We are 
interested in hearing about other capabilities we are exploring 
to expand our situational awareness as sea.
    To that point, excess DOD surveillance equipment is headed 
for the Rio Grande Valley in Texas to help detect illicit 
activity in the busiest sector in the Nation. This might also 
serve well in the maritime domain if attached to the right set 
of sensors and radar. As we continue to retrograde advanced 
surveillance technology from theater, CBP and the Coast Guard 
should also consider testing such gear on the maritime borders 
of the country.
    When it comes to drugs, the focus of effort, rightfully so, 
has been centered on source and transit zones in the Eastern 
Pacific and Caribbean. We must continue to concentrate our 
efforts where interdictions make the most impact. We will be 
interested to hear from the witnesses as to the frequency that 
we have intelligence on the movement of drug shipments without 
the assets positioned to interdict them.
    Pushing our borders out to secure the outer ring of border 
security makes sense in the maritime world. We have been and 
continue to be very strong supporters of leveraging our trusted 
allies' work where appropriate so we don't duplicate security 
efforts in inspecting maritime facilities overseas where 
necessary to minimize risk to our country.
    As is the case for our land borders, we have to determine 
in a verifiable way if we are making progress. The American 
people have a right to know if the money that we are spending 
is moving the needle toward greater maritime security. How much 
security we are getting for the patrol and flight hours is 
something that we need to develop. I am certainly fully 
cognizant of the metrics used for the land borders will not be 
the right way to measure security offshore, but that cannot 
mean that we do nothing or throw up our hands because it is 
difficult.
    So I want to challenge the Department to develop a series 
of metrics that will help inform how we spend limited dollars 
to buy new cutters, patrol boats, and aircraft and point the 
way to progress in maritime security and situational awareness. 
Especially in times of austere budgets, we have to be smart 
about how we spend our money and find every efficiency that we 
can.
    With that, I will yield to my Ranking Member, the 
gentlelady from Texas.
    Ms. Jackson Lee. Madam Chairwoman, thank you so very much 
for your yielding. I believe that this is, together, a very 
important hearing. I thank you and am delighted to join you on 
this hearing.
    I want acknowledge the presence of my Members, Ms. Gabbard 
and Mr. O'Rourke, and acknowledge your Members, as well, and to 
welcome Admiral Lee and Commissioner Alles, along with Director 
Caldwell and Captain Woodring, who did make a quick leave of 
Houston, Texas. We were both able to be there yesterday, Madam 
Speaker, with the Vice President. So I couldn't think of a 
better and more fitting next day for the captain.
    As I was driving in from Ellington Field, I could see the 
potency of your message, and one that I support, and that is 
the importance of maritime security, as I passed one of the 
major, No. 1 petrochemical corridors in the Nation and realized 
the connectedness to our port and the importance of security.
    I do want to, if I may have a moment, Madam Chairwoman, 
just to acknowledge Mr. Robert Harvey of our Greater Houston 
Partnership, who is willing to sit here and listen to this 
hearing, partly, along with Bob Borochoff. I can assure you 
that they are strong supporters of border security and maritime 
security, as they are of immigration reform.
    I partly represent the Port of Houston and am the former 
chairwoman of the Subcommittee on Transportation Security. Now 
on this committee I have seen, collectively--because the port 
has both rail, obviously, and water and, as I indicated, a 
long, long legacy with the petrochemical industry. I have long 
advocated for strengthening our maritime borders while 
facilitating legitimate maritime trade.
    I was pleased to have Vice President Biden and Secretary of 
Transportation Foxx visit the Port of Houston yesterday. Their 
visit provided an opportunity to discuss the opening of the 
Panama Canal and the value of job creation from our Nation's 
ports and related industries.
    I join with the Chairwoman in her acknowledgment of a 
matrix that should be created. My first-hand assessment, 
traveling on a speedboat out on the outer sides of the Panama 
Canal and listening to Coast Guard representatives talk about 
the dangers that are posed by waters that are not supervised 
and their impact on ports that necessarily need that security.
    The Vice President's visit provided an opportunity to 
discuss, as I indicated, jobs. Maritime trade is the heart of 
the economy in many communities across this country, including 
Houston.
    A few facts and figures about the Port of Houston: Its 52-
mile channel opened in 1914. It is home to 150 public and 
private companies. Handles nearly 230 million tons of cargo 
annually, making it the No. 1 U.S. port in foreign waterborne 
tonnage; Mexico's top import and export trading partner. 
Therefore, it is busy, and the security is crucial.
    The Port of Houston had over $200 million in operating 
revenues last year, handling 42 tons of cargo, nearly 70 
percent of the container cargo in the U.S. gulf annually. As a 
result, the port generates over 650,000 jobs at its terminals.
    A terrorist or an unfortunate incident could be 
catastrophic, not only for the Port of Houston but for the 
United States of America. This is an important topic, on how do 
we develop the next steps for maritime security. With the 
Nation's largest petrochemical complex, supplying over 40 
percent of the Nation's base petrochemical manufacturing 
capacity, what happens at the Port of Houston affects the 
entire Nation. The Port Commission's and Port Authority's staff 
are keenly aware of their role in ensuring that the port is 
secured appropriately.
    A few months ago, we joined full committee Chairman McCaul 
at the port. I am very pleased to say they were the recipients, 
along with others, of UASI grants dealing with increased 
security and increased equipment. We are fortunate to have the 
best emergency response assets and personnel available to 
Houston to protect this National asset. The Federal 
Government's use of these moneys in a responsible manner by 
distributing to ports like Houston have been enormously 
effective.
    We also recognize that we must continue to identify 
effective and efficient security solutions for our ports and 
for securing maritime borders. While much of the border 
security discussion in Congress today is focused on securing 
our land borders, securing our maritime borders is essential to 
any conversations focused on comprehensive border security. 
Although the Mumbai incident was not a port per se, having 
visited Mumbai and the site of the terrorist incident that 
occurred, I can assure that you it was similar. The water area 
penetrated onto the land.
    When we discuss border security, whether we are talking 
about narcotics, undocumented aliens, or those who might wish 
to do us harm, we know that people will take the route they 
perceive to offer the best opportunity to enter the country. If 
we only secure our land borders, bad actors will exploit 
America's maritime borders and vice versa. We are only as 
strong as our weakest link, which is why it is imperative that 
we support the work of the Coast Guard, CBP's Office of Air and 
Marine, and State and local law enforcement agencies.
    I would say that one of the necessities, Madam Chairwoman, 
is an understanding of the matrix that can be created by the 
Coast Guard and funding of those extra assets and also their 
plan. I would like to see a plan from the Department, but I 
think the Coast Guard is going to be the most effective.
    Supporting these entities includes ensuring that they have 
the funds necessary to carry out their core functions. Given 
limited Federal resources, agencies across the Government 
should do everything possible to share information technology 
as appropriate, avoid duplication of efforts in order to secure 
our borders as effectively and efficiently as possible.
    Today I hope to hear how Coast Guard is collaborating with 
Customs and Border Protection's Office of Air and Marine to 
leverage personnel assets and information to enhance the 
maritime security. Among other things, I hope to hear from 
Admiral Lee and Assistant Commissioner Alles about their joint 
efforts to operate the Guardian Maritime Unmanned Aerial System 
to increase awareness in the maritime domain, as well as Coast 
Guard's on-going collaboration with the U.S. Navy to operate 
smaller U.S.S.'s aboard its National security cutter fleet.
    I would like to hear from Mr. Caldwell about how we define 
and evaluate investments to secure our borders through 
personnel, technology, and resources so that we can ensure that 
our efforts are focused and streamlined toward a better-managed 
maritime border. I would like to also hear how you are working 
with those smaller technology companies and whether or not they 
can be effective in helping us.
    I look forward to the testimony of Captain Woodring, who 
currently serves as the managing director for health, safety, 
and security. We have known each other for a long period of 
time. An outstanding representative of the U.S. Coast Guard for 
27 years; and now committed to working with the Port of Houston 
on one of the largest ports, and, of course, has served us well 
in that position.
    The size of the Port of Houston, having 52 miles of 
chemical and petroleum facilities, bordering 21 communities, 
represents a unique challenge. You can be assured they are 
certainly in the eye of those who would want to do this Nation 
harm. For these reasons and more, the Port of Houston is an 
excellent example of the need for best practices and the use of 
best practices and for this hearing, Madam Chairwoman. 
Delighted to join you in it, because I think this is the right 
step to be taking, is to ask real, hard questions on maritime 
security.
    With that, Madam Chairwoman, I yield back.
    Mrs. Miller. I thank the gentlelady for her comments.
    Other Members of the committee are reminded that opening 
statements might be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           November 19, 2013
    I know the subcommittee has focused largely on our land borders in 
its oversight hearings of late. While that is a critically important 
issue, I am pleased to see the subcommittee examining the security of 
our maritime borders as well. As challenging as managing our land 
borders with Canada and Mexico may be, in many ways the maritime domain 
poses an even greater challenge.
    The variety of threats we face, the vast areas involved, and our 
relatively limited resources make securing our maritime borders no easy 
task. That task gets more difficult every day with sequester on top of 
other recent budget cuts to the Coast Guard and Customs and Border 
Protection's Air and Marine.
    I hope we can have a frank discussion about these cuts and what 
they mean operationally for the Coast Guard and CBP and their ability 
to secure our maritime borders. I look forward to a discussion about 
our current maritime border security priorities and what more needs to 
be done to address those priorities.
    Today, the Government Accountability Office is releasing a report I 
requested on one threat to maritime security--small vessels. As we have 
seen in incidents such as the bombing of the U.S.S. Cole, small vessels 
can pose a serious threat to U.S. interests both at home and abroad. I 
look forward to hearing from our GAO witness, Mr. Caldwell, about this 
report as well as what more remains to be done to address this threat.
    I am concerned by GAO's findings in another of its recent reports--
this one regarding DHS's efforts to secure maritime cargo. It is my 
understanding that GAO found CBP has not done an assessment of risks at 
foreign ports related to its Container Security Initiative (CSI) 
program since 2005.
    GAO did its own calculations and determined that less than half of 
the CSI locations are at high-risk foreign ports. If DHS has failed to 
assess the security of foreign ports in the last 8 years, and if its 
CSI is deployed mostly at medium-and-low-risk ports, can the program be 
achieving its intended purpose?
    These troubling findings certainly undermine DHS's contention that 
it has a robust and dynamic risk-based container security regime in 
place, despite its continued refusal to even attempt to implement the 
100% cargo security scanning mandate.
    Just as our land borders won't be secure until we know what is 
coming through our ports of entry, our maritime borders won't be secure 
until we have greater certainty about the cargo arriving at our shores.

    Mrs. Miller. Again, we are pleased to have four very 
distinguished witnesses with us today. I will give a little bit 
more formal introduction before we ask them for their 
testimony.
    First, Rear Admiral William ``Dean'' Lee is the deputy 
commandant for Operations Policy and Capabilities at the United 
States Coast Guard. In this role, Rear Admiral Lee oversees 
integration of all operations capabilities, strategy, and 
resource policy. He spent 13 years in six different command 
assignments and spent a career specializing in boat operations 
and search and rescue.
    We welcome to you to the committee.
    General Randolph D. ``Tex'' Alles is the assistant 
commissioner for the Office of Air and Marine at United States 
Customs and Border Protection. Air and Marine is the world's 
largest aviation and maritime law enforcement organization, and 
its mission is the use of Air and Marine assets to detect, 
interdict, and prevent acts of terrorism and the unlawful 
movement of people, illegal drugs, and other contraband across 
the border.
    Mr. Stephen Caldwell is GAO's director of Maritime Security 
Issues. He has testified at more than 30 Congressional hearings 
and led the research and publication of more than 150 GAO 
reports. His recent GAO reports evaluated threats to and 
programs to protect our maritime transportation system and its 
supporting infrastructure, both far overseas and in our 
domestic ports at well.
    Again, Mr. Marcus Woodring retired from the U.S. Coast 
Guard as captain of the Port of Houston, Galveston, in 2011 and 
assumed his current position with the Port of Houston Authority 
in July of that year. He is responsible for safety, security, 
environmental stewardship, and emergency response at the eight 
terminals along the Houston Ship Channel.
    The full written statements will appear in the record.
    The Chairwoman now recognizes Admiral Lee for his 
testimony.

STATEMENT OF REAR ADMIRAL WILLIAM D. LEE, DEPUTY FOR OPERATIONS 
 POLICY AND CAPABILITIES, U.S. COAST GUARD, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Admiral Lee. Good morning, Chairman Miller, Ranking Member 
Jackson Lee, and distinguished Members of the subcommittee. I 
am honored to be here today to discuss the Coast Guard's role 
in border security, and maritime border security in particular.
    Indeed, border security is a significant priority for our 
Nation, requiring comprehensive efforts across many departments 
and agencies, including, of course, the U.S. Department of 
Homeland Security. DHS secures the Nation's air, land, and sea 
borders to prevent illegal activity while facilitating lawful 
travel and trade.
    As a Department, we have three objectives with border 
security and management: No. 1, effectively securing the U.S. 
air, land, and sea points of entry; No. 2, safeguarding and 
streamlining lawful trade and travel; and, last, disrupting and 
dismantling transnational criminal and terrorist organizations.
    United States Coast Guard helps in this endeavor. We are 
responsible for maritime safety, security, and stewardship in 
U.S. waters on the high seas and in other waters subject to 
U.S. jurisdiction. The Coast Guard plays a critical role in 
addressing threats to our Nation's borders while facilitating 
the safe and efficient flow of maritime commerce.
    We are closely integrated with our partners in DHS, as well 
as from the Departments of State and Justice, among others, to 
meet mission responsibilities. To succeed, we must continue to 
promote legitimate activity while carefully screening people, 
cargo, and conveyances that could do harm to our Nation. To be 
certain, the Coast Guard is part of a border security system in 
the United States. We are closely integrated with our partners 
in DHS, as well as from the Departments of State and Justice, 
among others, to meet mission responsibilities.
    The U.S. maritime border is vast and very challenging. The 
Coast Guard's fleet patrols over 95,000 miles of coastline 
while exercising jurisdiction over 4.2 million square miles of 
ocean. In the Western Hemisphere, transnational organized crime 
networks are increasingly active. They traffic drugs, humans, 
and weapons and are increasingly involved with activity that 
accounts for recent spikes in regional violence.
    As you know, the Coast Guard's resources are limited. 
Securing our maritime borders requires a strategic approach to 
maximize the impact of all of our efforts. Moreover, we must 
continue to work closely with our partners to implement an 
adaptable layered security strategy to counter maritime border 
threats. Our risk-based approach relies upon effective 
awareness of threats, proper threat prioritization, efficacy of 
asset lay-down, and, as always, strong partnerships at many 
levels.
    The first layer of security starts overseas, where we 
assess foreign port security and antiterrorism measures through 
our International Port Security Program. These activities help 
to ensure the security of cargo that is shipped to the United 
States from our many international trading partners.
    Offshore, on the high seas and in the 200-mile exclusive 
economic zone, we forward-deploy major cutters and law 
enforcement detachments to establish a presence and to respond 
to an array of maritime threats. Coast Guard patrol aircraft 
and cutter-deployed helicopters support this effort by 
providing long-range detection and response capabilities.
    Last year, our cutter and aircraft crews removed over 77 
metric tons of cocaine and 35 tons of marijuana in the 6-
million-square-mile Transit Zone. This is a decrease of 
approximately 30 metric tons from fiscal year 2012, which is 
attributed, in part, to the reduction in aircraft and cutter 
patrol hours under sequestration.
    Interdicting illicit narcotics in wholesale, bulk, and pure 
quantities continues to be the most effective approach to 
counter the flow and impact of narcotics to the United States 
and our Western Hemisphere neighbors. Perhaps equally as 
important, it denies transnational criminal organizations 
billions of dollars in profit and supports the international 
effort to dismantle these organizations.
    As an example, in late October, a maritime patrol aircraft 
detected a high-speed vessel suspected of drug trafficking in 
the central Caribbean, approximately 200 miles south of the 
Dominican Republic. A Netherlands Navy warship, operating under 
the tactical control of the Joint Interagency Task Force South, 
launched a helicopter that stopped the vessel. Simultaneously, 
a Coast Guard law enforcement detachment deployed from the 
Dutch ship to board the vessel. The boarding team seized 2,700 
pounds of cocaine and apprehended 4 suspects, who were turned 
over to the Department of Justice for prosecution.
    Closer to home, we work with interagency, 
intergovernmental, and commercial entities to patrol maritime 
approaches, escort vessels, monitor critical infrastructure, 
and inspect port facilities. Last February, I testified before 
you on the role interagency and international partners play in 
protecting our maritime borders. These partnerships continue to 
enhance our capability and effectiveness along our coast and 
waterways.
    Close coordination of activities through the regional 
coordinating mechanism, or ReCoM, has been effective in 
capitalizing on multi-agency DHS capabilities. Since October 
2011, ReCoMs in California have been integral in the 
interdiction of more than 1,000 illegal migrants and nearly 
211,000 pounds of illegal narcotics.
    To maximize the effectiveness of our efforts, we are a 
member of the National intelligence community. We screen ships, 
crews, and passengers bound for the United States by requiring 
vessels to submit an advance notice of arrival some 96 hours 
prior to entering any U.S. port. Using our maritime 
intelligence fusion centers and Intelligence Coordination 
Center, we work hand-in-hand with CBP to analyze arriving 
vessels and highlight potential risks. Last year, we 
collectively screened more than 118,000 vessels and 29.5 
million people and identified more than 237 individuals with 
terrorism or criminal associations.
    Beyond our domestic interagency partnerships, we have also 
developed strong partnerships with the governments of Canada 
and Mexico through several joint initiatives. Using joint 
standard operating procedures developed with Mexico, we 
successfully conducted 30 joint interdictions and removed more 
than 97,000 pounds of illegal drugs since 2008.
    Through integrated cross-trained enforcement teams, 
commonly referred to a Shiprider, Coast Guard, and Royal 
Canadian Mounted Police Officers conduct joint interdictions 
operations in each other's waters. Supported by jointly-
developed intelligence, these teams leverage each other's law 
enforcement authorities to prevent suspect vessels from 
escaping prosecution by fleeing into the other Nation's 
territorial seas.
    As I have outlined in my testimony, our strategy to secure 
our borders relies on a layered defense that is supported by 
effective awareness and threat prioritization to ensure the 
most effective use of our limited resources. As always, we must 
also rely on building and maintaining partnerships with a 
variety of international, Federal, State, local, and Tribal 
partners to detect, deter, and interdict any threats well 
before they reach the waters of the United States.
    In conclusion, the United States Coast Guard is an 
important partner in securing the U.S. maritime border. We must 
constantly improve our ability to detect, monitor, and 
intercept in-bound vessels to our Nation from overseas, in the 
Transit Zone, and in our ports. In doing so, we must ensure we 
help to facilitate legitimate activity and support safe and 
efficient maritime commerce.
    Thank you for your opportunity to testify, and I look 
forward to any of your questions.
    [The prepared statement of Admiral Lee follows:]
           Prepared Statement of Rear Admiral William D. Lee
                           November 19, 2013
                              introduction
    Good morning Madame Chair Miller, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee. I am honored to be here 
today to discuss the Coast Guard's role in maritime border security.
    The U.S. maritime border is vast and challenging in its scope and 
diversity. It encompasses the expanse of our ports and internal waters, 
our Territorial Seas, Contiguous Zone, and our Exclusive Economic Zone 
(EEZ) out to 200 nautical miles from shore and beyond in some cases for 
Extended Continental Shelf Claims. Threats to our maritime border have 
the potential to adversely impact our National security and economic 
prosperity. These threats include illicit smuggling and trafficking 
activities conducted by Transnational Criminal Organizations (TCOs), 
undocumented migration, illegal exploitation of our natural resources, 
potential terrorist activities, and the disruption of maritime 
commerce. Securing our maritime borders requires a layered, multi-
faceted approach of authorities, capabilities, competencies, and 
partnerships. To accomplish its mission, the Coast Guard optimizes the 
use of operational resources, leverages intelligence and maritime 
domain awareness programs, and fosters domestic and international 
partnerships. These activities deter, and disrupt threats as far from 
the United States as possible. The Coast Guard is at the forefront of 
securing the broad and varied expanse of ocean that makes up our 
maritime border while facilitating the smooth and efficient flow of 
legitimate maritime commerce and transportation.
                       maritime domain awareness
    One of the most important aspects of the Coast Guard's layered 
security approach is to understand the movement of vessels, people, and 
goods across our maritime borders. By combining security operations 
with effective governance such as vessel and cargo screening protocols, 
enforcing notice of arrival requirements and leveraging intelligence 
and information resources from across Government, the Coast Guard 
facilitates the secure and efficient flow of commerce through our 
Nation's waterways.
    Vessel screening applies analytical criteria to inbound vessels to 
develop a manageable set of targets for a potential Coast Guard 
boarding and/or inspection. The Coast Guard screens ships, crews, and 
passengers for all vessels required to submit a 96-hour Advance Notice 
of Arrival (ANOA) prior to entering a U.S. port. Complementary 
screening efforts occur at the National and tactical levels. At the 
National level, the Intelligence Coordination Center's Coastwatch 
Branch, which is co-located with CBP at the National Targeting Center, 
screens crew and passenger information. Through our partnership with 
CBP, we have expanded access to counter-terrorism, law enforcement, and 
immigration databases and this integration has led to greater 
information sharing and more effective security operations. In 2012, 
Coastwatch screened approximately 118,000 ANOAs and 29.5 million crew/
passenger records.
    At the tactical level, each of the Coast Guard's Area Commanders 
receives support from a Maritime Intelligence Fusion Center (MIFC), 
which screens the commercial vessels operating within their areas of 
responsibility (over 350,000 in 2012) for unique indicators, as well as 
providing additional screening for vessels that submit an ANOA. The 
MIFCs focus on screening characteristics associated with the vessels 
itself, such as ownership, ownership associations, cargo, and previous 
activity. Coast Guard vessel screening results are disseminated to the 
appropriate DHS Maritime Interagency Operations Center, Sector Command 
Center, local intelligence staffs, and CBP and other interagency 
partners to evaluate and take action on any potential risks.
    The Coast Guard also supports the CBP Container Security 
Initiative, to ensure that all United States-bound maritime shipping 
containers posing a potential risk are identified and inspected prior 
to being placed on vessels. This initiative encourages interagency 
cooperation through collecting and sharing information and trade data 
gathered from ports, strengthening cooperation and facilitating risk-
informed decision making.
                  operations to counter maritime risk
    Coast Guard cutters, maritime patrol aircraft, and Law Enforcement 
Detachments (LEDETs) embarked on U.S. Navy and Allied nation vessels 
are critical enforcement and deterrence assets in the offshore 
environment. They are capable of responding to threats far from our 
coasts and maintain a vigilant presence over U.S. interests on the High 
Seas and in our EEZ. Closer to home, Coast Guard helicopters, patrol 
boats, and boat stations monitor, track, and interdict vessels of 
interest. In our ports, the Coast Guard partners with Federal, State, 
local, Tribal, and industry stakeholders, to monitor critical 
infrastructure, conduct vessel escorts and patrols, and inspect vessels 
and facilities. The Coast Guard's mix of multi-mission cutters, 
aircraft, boats, as well as deployable specialized forces, allows us to 
exercise layered and effective security throughout the maritime domain.
    To leverage existing programs, the Coast Guard established formal 
partnerships to collaborate with CBP on their maritime Predator 
Unmanned Aerial System (UAS) program (land-based), and with the Navy 
UAS programs. Incorporating the UAS capability with manned patrolling 
will improve detection and surveillance activities at a significantly 
reduced cost when compared to manned aviation.
    During a recent proof-of-concept deployment aboard USCGC BERTHOLF, 
the ScanEagle UAS proved to be a superb force multiplier in two 
separate law enforcement cases, resulting in the removal of 570 
kilograms of cocaine and the detention of six suspected smugglers.
    When the Coast Guard is alerted to a specific maritime threat to 
the United States that requires a coordinated U.S. Government response, 
the Maritime Operational Threat Response (MOTR) Plan is activated. The 
MOTR Plan uses established protocols and an integrated network of 
National-level maritime command and operations centers to facilitate 
real-time Federal interagency communication, coordination, and decision 
making to ensure a timely, unified, and decisive response to maritime 
threats.
                       international partnerships
    To detect, deter, and counter threats as early as possible, the 
Coast Guard fosters strategic relationships with partner nations. The 
International Ship and Port Facility Security (ISPS) Code provides an 
international regime to ensure ship and port facilities take 
appropriate preventative measures consistent with our domestic regime 
under the Maritime Transportation Security Act. Through the 
International Port Security Program, the Coast Guard conducts foreign 
port assessments to determine the port security effectiveness and 
antiterrorism measures of foreign trading partners. Since the inception 
of the International Port Security Program in 2004, Coast Guard 
personnel have visited more than 150 countries and approximately 1,200 
port facilities. These countries generally receive biennial assessments 
to verify compliance with the ISPS Code and U.S. maritime security 
regulations, as appropriate. Vessels arriving in non-ISPS Code-
compliant countries are required to take additional security 
precautions while in those ports and may be boarded by the Coast Guard 
before being granted permission to enter U.S. ports. In specific cases, 
these vessels may be refused entry.
    To more effectively counter maritime threats in the offshore region 
and throughout the Western Hemisphere, the Coast Guard maintains more 
than 30 maritime bilateral law enforcement agreements with partner 
nations. These agreements facilitate coordination of operations and the 
forward deployment of boats, cutters, aircraft, and personnel to deter 
and counter threats as close to their origin as possible.
    To further address maritime threats and to improve security along 
with Southwest Border of the United States, the Coast Guard, U.S. 
Northern Command (NORTHCOM), the Mexican Navy (SEMAR), and the Mexican 
Secretariat for Communications and Transportation (SCT) have 
strengthened relations through the Security and Prosperity Partnership 
(SPP). Through the SPP, SEMAR and SCT are increasing their engagement 
with the Coast Guard through training, exercises, coordinated 
operations, and intelligence and information sharing. Furthermore, the 
North American Maritime Security Initiative (NAMSI) provides an 
operational relationship between SEMAR, NORTHCOM, Canadian Forces, and 
the Coast Guard built upon standard procedures for communications, 
training, and operations. Since the inception of NAMSI in December 
2008, there have been 30 joint narcotics interdiction cases resulting 
in the seizure of 97,200 pounds of illegal narcotics.
    Cooperation and collaboration with Canada remains one of the Coast 
Guard's most enduring and effective international partnerships. As 
outlined in the U.S.-Canada Beyond the Border declaration, border 
security includes the safety, security, and resiliency of our Nation; 
the protection of our environmental resources; and the facilitation of 
the safe and secure movement of commerce in the global supply chain. 
The Coast Guard is a key part of Integrated Border Enforcement Team 
(IBET) activities, where U.S. and Canadian agencies share information 
and expertise to support interdiction operations along our common 
border. From this partnership, an operational relationship known as 
Integrated Cross-border Maritime Law Enforcement Operations (ICMLEO), 
commonly referred to as Shiprider, has emerged. The ICMLEO arrangement 
spans the shared waterways of U.S./Canadian maritime border, and 
greatly facilitates cooperative, integrated maritime operations by 
providing U.S. and Canadian law enforcement officers the authority to 
conduct joint law enforcement operations on both sides of the border.
                         domestic partnerships
    The Coast Guard coordinates and conducts joint operations with 
other DHS components and interagency partners as part of a whole-of-
Government response to maritime border threats. Along the Southwest 
Border, DHS partners continue to apply a broad-based approach to keep 
communities safe from threats of border-related violence and crime, and 
to weaken the TCOs that threaten the safety of communities throughout 
the Western Hemisphere.
    In our ports, the Coast Guard Captain of the Port (COTP) is 
designated as the Federal Maritime Security Coordinator (FMSC). In this 
role, COTPs lead the Nation's 43 Area Maritime Security Committees 
(AMSC) and oversee the development, regular review, and annual exercise 
of their respective Area Maritime Security Plans (AMSPs). AMSC's assist 
and advise the FMSC in the development, review, and implementation of a 
coordination/communication framework to identify risks and 
vulnerabilities in and around ports. Additionally, AMSC's coordinate 
resources to prevent, protect against, respond to, and recover from 
Transportation Security Incidents (TSIs). AMSCs have developed strong 
working partnerships between all levels of Government and private 
industry stakeholders.
    On a National scale, the establishment of Interagency Operations 
Centers (IOCs) for port security is well underway. In ports such as 
Charleston, Puget Sound, San Diego, Boston, and Jacksonville, the Coast 
Guard, CBP, and other agencies are sharing workspace and coordinating 
operational efforts for improved efficiency and effectiveness of 
maritime security operations.
    The Regional Coordinating Mechanism (ReCoM) is another example of 
the evolution of coordinated joint operations among interagency 
partners. Located at San Diego, Los Angeles, and San Francisco, the 
ReCoMs are manned with Coast Guard, CBP, and State and local law 
enforcement agencies. The San Diego and Los Angeles/Long Beach ReCoMs 
coordinated operations contributing directly to the interdiction of 
1,002 illegal migrants and 210,900 pounds of illegal drugs in fiscal 
year 2012 and fiscal year 2013.
    To counter the drug and migrant smuggling threat in waters off 
Southern California, the Coast Guard, in partnership with other 
Federal, State, and local agencies increased our levels of effort for 
the standing Coast Guard Operation Baja Tempestad.
    This combined operation brings additional resources to the fight 
against TCOs, including flight deck-equipped cutters with airborne and 
surface use-of-force capability; increased Coast Guard and Customs and 
Border Protection maritime patrol aircraft flights; additional non-
compliant vessel use-of-force endgame capabilities from our shore-based 
boats; and enhanced intelligence collection, analysis, and 
dissemination. In fiscal year 2013, this interagency effort has led to 
the removal of more than 90,900 pounds of marijuana and the 
apprehension of 400 illegal migrants.
    On the high seas and throughout the 6 million-square-mile drug 
Transit Zone, joint interdiction operations with Federal partners are 
coordinated through Joint Interagency Task Force South (JIATF-S) and 
Joint Interagency Task Force West (JIATF-W). To support detection, 
monitoring, interdiction, and apprehension operations in the Transit 
Zone, the Coast Guard leverages maritime assets by forward deploying 
cutters, patrol aircraft, and Law Enforcement Detachments embarked on 
U.S. Navy and Allied (British, Dutch, and Canadian) assets. The Coast 
Guard also works closely with the State and Justice Departments to 
bring suspected illicit traffickers to the United States for 
prosecution.
    In Puerto Rico, the Coast Guard is part of a broad Federal effort 
to strengthen current joint operations. As the lead Federal maritime 
agency within DHS, the Coast Guard is conducting targeted surge 
operations in the maritime domain and is collaborating with 
international stakeholders to stem the flow of illicit drugs into 
Puerto Rico and the U.S. Virgin Islands. As a result of these joint 
efforts, 7,165 kilograms of cocaine and 200 pounds of marijuana were 
removed in fiscal year 2012 and 24,000 kilograms of cocaine and 9,500 
pounds of marijuana were removed in fiscal year 2013.
                               conclusion
    The Coast Guard's layered maritime border security strategy 
addresses the broad range of offshore and coastal threats that have the 
potential to impact our National security and economic prosperity. From 
our efforts to expand maritime domain awareness to our international 
and domestic partnerships, and investments in cutter, boat, and 
aircraft recapitalization, the Coast Guard continues to improve 
maritime border security while facilitating the safe flow of legitimate 
commerce.
    Thank you for the opportunity to testify today, and thank you for 
your continued support of the U.S. Coast Guard. I would be pleased to 
answer your questions.

    Mrs. Miller. Thank you very much, Admiral.
    As I recognize Commissioner Alles, let me just take a point 
of personal privilege, since you were talking about interagency 
partnerships between yourself and CBP. I see that every day in 
my own district at Selfridge Air National Guard Base, where we 
have Air Station Detroit. Colonel Ogden is your sector 
commander there. Colonel Rembold does such a great job with the 
Air and Marine Northern Border Wing there, as well. It really 
is a wonderful thing to see them all.
    So, with that, Commissioner Alles.

STATEMENT OF GENERAL RANDOLPH D. ALLES, ASSISTANT COMMISSIONER, 
 OFFICE OF AIR AND MARINE, U.S. CUSTOMS AND BORDER PROTECTION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    General Alles. Good morning, Chairwoman Miller and Ranking 
Member Jackson Lee and distinguished Members of the committee. 
It is an honor to appear before you today to discuss the 
critical role of U.S. Customs and Border Protection in securing 
our Nation's maritime borders.
    I appreciate the committee's leadership and commitment to 
ensuring the security of the American people. I look forward to 
discussing Air and Marine contributions to CBP's antiterrorism 
and border security mission at and beyond our borders in 
support of CBP's layered approach to security efforts.
    So we are here to discuss what a secure maritime border 
looks like. A security maritime border necessitates significant 
domain awareness and involves partnerships, intelligence, and a 
coordinated approach to the use of detection resources for 
effective understanding of the threats associated with the 
maritime domain that could impact the security, safety, 
economy, or environment of the United States.
    Maritime security cannot be measured by a single metric; 
rather, a secure maritime border is one where ample 
opportunities and capabilities are present to mitigate threats 
and keep our communities safe.
    Over the past 11 years, CBP has dedicated historic levels 
of personnel and technology and resources in support of our 
maritime security efforts. The number of Air and Marine agents 
dedicated to supporting CBP's mission currently stands at 1,728 
enforcement and support personnel throughout the United States 
and its territories, which is about a three-fold increase since 
we were first created.
    In fiscal year 2013, Air and Marine interdicted over 
820,000 pounds of illicit drugs, with a street value of almost 
$12 billion; conducted 3,000 arrests; participated in the 
apprehension of 48,000 illegal immigrants; seized $24 million 
in currency and 3,100 weapons.
    Our maritime border security mission is complex and 
challenging. The maritime domain, generally less restricted 
than the air and land domain, is an expansive pathway to the 
world without fences. The pathway connects to more than 95,000 
miles of U.S. maritime border.
    Our aerial assets play a critical role in maritime security 
efforts. Air and Marine P-3s are high-endurance, all-weather 
aircraft used to intercept and track airborne smuggling 
threats. In partnership with the Coast Guard, Air and Marine 
developed a maritime variant of the Predator B called the 
Guardian. Air and Marine pilots, augmented by Coast Guard 
personnel, use the Guardian to conduct long-range surveillance 
in support of joint counter-narcotics operations in the 
southeast coastal, Gulf of Mexico, drug source, and transit 
zones. Working in conjunction with aviation assets, Air and 
Marine interceptor vessels operate in offshore coastal waters 
to combat smuggling and protect the U.S. maritime border from 
acts of terrorism.
    To address the small-boat challenge and increase security 
and maritime domain awareness, CBP's Office of Field Operations 
implemented the Small Vessel Reporting System. It is a 
voluntary on-line system for the reporting of foreign travel of 
small vessels' operators and passengers. It segregates low-risk 
vessels and boater traffic and increases our ability to 
identify suspicious or unknown vessels approaching or traveling 
U.S. waterways.
    Additionally, a considerable threat along the maritime 
border involves the use of pangas, as mentioned by Admiral Lee. 
Smugglers use these wood or fiberglass homemade fishing 
vessels, with relatively high-speed capabilities, their small 
radar signature, and the cover of darkness, in an attempt to 
evade detection by service patrol vessels and patrol aircraft. 
They are used to quickly move contraband short distances. 
Larger and high-powered pangas, ranging in size up to 50 feet 
in length, are capable of carrying multi-ton loads of 
contraband great distance. Of the 123 maritime seizures to the 
San Diego region in fiscal year 2013, 81 were pangas, and they 
accounted for 93,000 pounds of marijuana.
    Air and Marine has been an integral part of successful 
interagency counter-narcotics missions. For example, operating 
in coordination with the Joint Interagency Task Force South, 
Air and Marine assets, including P-3 aircraft, patrol a 6-
million-mile area of the Western Caribbean and Eastern Pacific 
known as the Transit Zone. We heavily cooperate with the Coast 
Guard in this region, I would say, on a daily basis.
    Air and Marine continues to engage with the Coast Guard and 
DOD to identify and deploy enabling technology to permit the 
expansion of overall maritime domain awareness and the 
integration of information and maritime sensor data throughout 
DOD and DHS. Currently, we are collaborating with DOD to obtain 
additional radar data from patrolling DOD air and service 
assets along the California coastline to increase our maritime 
domain awareness.
    Coordination and cooperation among all entities that have a 
stake in our mission have been and continue to be paramount to 
an effective maritime security strategy. Air and Marine 
continues to unify our enforcement efforts and expand 
collaboration with other agencies.
    Because of the continual support of Congress, Air and 
Marine has been a significant contributor to CBP's progress in 
securing our Nation's maritime borders. We will continue to 
transform our aviation and maritime fleet to enhance detection 
and interdiction capabilities and work with our international 
and Federal partners to combat the risks that exist today and 
be prepared for those of tomorrow.
    Chairman Miller, Ranking Member Jackson Lee, and 
distinguished Members of the committee, thank you for this 
opportunity to discuss our role of Air and Marine and also 
Customs and Border Protection. I look forward to answering your 
questions. Thank you.
    [The prepared statement of General Alles follows:]
            Prepared Statement of General Randolph D. Alles
                           November 19, 2013
                              introduction
    Chairwoman Miller, Ranking Member Jackson Lee, and distinguished 
Members of the subcommittee, it is a pleasure to appear before you 
today to discuss U.S. Customs and Border Protection (CBP) efforts to 
secure our Nation's maritime borders.
    We are here today to discuss what a secure maritime border looks 
like. A secure maritime border necessitates significant domain 
awareness and involves partnerships, intelligence, and a coordinated 
approach to the use of detection resources for effective understanding 
of the threats associated with the maritime domain that could impact 
the security, safety, economy, or environment of the United States. 
Maritime security cannot be measured by a single metric. Rather, a 
secure maritime border is one where ample opportunities and 
capabilities are present to mitigate threats and keep our communities 
safe.
    As America's front-line border agency, CBP is responsible for 
securing America's borders against threats while facilitating the 
lawful flow of people and goods entering the United States. To 
accomplish our mission, CBP has deployed a multi-layered, risk-based 
approach to enhance the security of our borders. This layered approach 
to security reduces our reliance on any single point or program that 
could be compromised. The ``defense-in-depth'' strategy extends our 
zone of security outward, ensuring that our physical border is not the 
first or last line of defense, but one of many.
              overview of cbp maritime security operations
    CBP's Office of Air and Marine (OAM) is the world's largest 
aviation and maritime law enforcement organization, and is a critical 
component of CBP's layered enforcement strategy for border security. 
OAM protects the American people and the Nation's critical 
infrastructure through the coordinated use of integrated air and marine 
assets to detect, interdict, and prevent acts of terrorism and the 
unlawful movement of people, illegal drugs, and other contraband toward 
or across the borders of the United States.
    Over the past 11 years, CBP has dedicated historic levels of 
personnel, technology, and resources in support of our maritime 
security efforts. The number of OAM agents dedicated to performing 
CBP's mission has grown from 943 in fiscal year 2002 to a present force 
of 1,728 enforcement and support personnel throughout the United States 
and territories.\1\
---------------------------------------------------------------------------
    \1\ As of pay period 20, fiscal year 2013.
---------------------------------------------------------------------------
    OAM operations in the field are divided into three regions: The 
Southwest Border Region, the Northern Border Region, and the Southeast 
Border Region. Each region is split into Air and Marine Branches, and 
then further divided into Air and/or Marine Units.
    OAM also operates two unique operational entities: National Air 
Security Operations (NASO) and the Air and Marine Operations Center 
(AMOC). NASO, operating out of six centers Nation-wide, coordinates 
operational activities, long-range planning, and project oversight for 
the P-3 aircraft and unmanned aircraft system (UAS) programs. AMOC is a 
state-of-the-art law enforcement operations and domain awareness center 
that conducts air and marine surveillance operations. These air and 
marine surveillance operations provide direct coordination and support 
to OAM; CBP law enforcement agents performing interdiction missions; 
and other Federal, State, and local law enforcement agencies conducting 
criminal investigations. The AMOC is located in Riverside, California, 
with satellite operations centers in Puerto Rico and the National 
Capital Region.
    The OAM fleet consists of 289 coastal and riverine vessels and 242 
aircraft including 105 fixed-wing, and 137 rotary-wing. These assets 
provide critical aerial and maritime surveillance, interdiction, and 
operational assistance to ground personnel to support CBP's maritime 
security mission. CBP continues to modernize its fleet to enhance our 
operational performance in diverse marine environments and increase our 
ability to adapt to the challenges of securing the maritime approaches 
to the United States.
    Additionally, in support of OAM operations, CBP has assumed 
responsibility for the Tethered Aerostat Radar System (TARS) Program 
from the Department of Defense (DOD) in fiscal year 2014. TARS has 
assisted CBP and its legacy agencies with providing air domain 
awareness for more than 20 years--it is a multi-mission capability that 
supports CBP's border security mission.
    OAM provides surveillance of known air, land, and maritime 
smuggling routes in an area that is twice the size of the United 
States. With our partners, OAM agents detect, monitor, and disrupt 
illicit activities before they reach the shore.
                      maritime threats and efforts
    CBP's maritime border security mission is complex and challenging. 
The maritime domain, generally less restricted than the air and land 
domains, is an expansive pathway to the world without fences. That 
pathway connects to more than 95,000 miles of U.S. shoreline.\2\
---------------------------------------------------------------------------
    \2\ DHS, Small Vessel Security Strategy, April 2008, page 4. http:/
/www.dhs.gov/xlibrary/assets/small-vessel-security-strategy.pdf.
---------------------------------------------------------------------------
    While the Maritime Transportation Security Act of 2002 (MTSA) and 
the International Convention for the Safety of Life at Sea (SOLAS) 
require many commercial, passenger, and fishing vessels to operate with 
an Automatic Identification System (AIS), a tracking system to, among 
other things, increase maritime awareness, the requirement does not 
cover many small vessels.\3\ The United States Coast Guard (USCG) 
estimates that, combined with unregistered watercraft, there are 
approximately 17 million small vessels \4\ operating in U.S. waterways; 
a majority of these vessels are not required to utilize AIS. Therefore, 
detecting and assessing the risk of small vessels is particularly 
challenging.
---------------------------------------------------------------------------
    \3\ ``Small vessels'' are characterized as any watercraft, 
regardless of method of propulsion, less than 300 gross tons. Small 
vessels can include commercial fishing vessels, recreational boats and 
yachts, towing vessels, uninspected passenger vessels, or any other 
commercial vessels involved in foreign or U.S. voyages. DHS, Small 
Vessel Security Implementation Plan Report to the Public, January, 
2001, page 1. http://www.dhs.gov/xlibrary/assets/dhs-uscg-small-vessel-
security-strategy-report-to-public-012011.pdf.
    \4\ USCG 2006 boater statistics compiled from State boater 
registration reports indicate there are 13 million registered boats in 
the United States. When combined with unregistered boats, the figure is 
estimated at 17 million total U.S. watercraft. DHS, Small Vessel 
Security Strategy, April 2008, footnote 2, page i. http://www.dhs.gov/
xlibrary/assets/small-vessel-security-strategy.pdf.
---------------------------------------------------------------------------
    Additionally, the maritime environment contains both legitimate and 
illegitimate traffic sharing the same transit routes. Smugglers use a 
wide range of evolving methods, including the use of small vessels, to 
move contraband and people across our borders. OAM adapts its strategy 
and response to address emerging threats, tactics, and intelligence.
    As part of CBP's comprehensive effort to improve the security of 
our Nation's borders while enhancing legitimate travel specifically for 
small boaters, CBP's Office of Field Operations (OFO) utilizes several 
alternate inspection programs such as the Canadian Border Boater permit 
(I-68), Nexus Marine program, and the Small Vessel Reporting System 
(SVRS). SVRS, a voluntary, on-line program to report the foreign travel 
of small vessel operators and passengers, was developed to better track 
small vessels and make it easier to identify suspicious or unknown 
vessels. Enrollment in SVRS includes completing an on-line application, 
attending a face-to-face interview with a CBP officer, and, if needed, 
providing biometrics for verification. Once enrolled, participants are 
able to submit a ``float plan'' consisting of biographical information 
of all persons intending on traveling, vessel registration information, 
and itinerary information. By enrolling and submitting a float plan, 
participants may not have to appear in person for inspection by a CBP 
officer each time they enter the United States. Participants are still 
required to report via telephone their arrival in the United States. 
Initiatives such as SVRS provide CBP with advanced vessel information 
and increased awareness of small vessels approaching or traveling U.S. 
waterways. Segregating low-risk vessels facilitates legitimate 
recreational boater traffic and increases CBP's ability to identify 
higher-risk vessels and dedicate resources to address illicit maritime 
activities.
    A considerable threat along our entire maritime border involves the 
use of ``pangas.'' Smugglers use these wood or fiberglass homemade 
fishing vessels' relatively high-speed capabilities, small radar 
signature, and the cover of darkness to attempt to evade detection by 
surface patrol vessels and patrol aircraft. Small panga vessels are 
used to quickly move contraband short distances; however, larger and 
higher-powered pangas can range in size up to 50 feet in length and are 
capable of carrying multi-ton loads of contraband greater distances.
    A recent trend identified off the California coast is a shift from 
using smaller panga vessels that make quick cross-border trips to beach 
areas near San Diego to using larger pangas. Larger pangas are 
typically used in the Western Caribbean transit zones from South 
America, but are now transiting from Mexico farther offshore and 
farther northward along the California coast.
    In fiscal year 2013, the San Diego Maritime Domain along the 
California Coast, had 243 maritime smuggling events and 123 seizures, 
of which 81 were pangas, accounting for 93,240 pounds of marijuana.
    OAM is taking the Southern California panga threat seriously and is 
evaluating a number of options to aggressively address the significant 
increase in smuggling events and the trends moving these panga trips 
northward. Our response includes increasing the number of Multi-Role 
Enforcement Aircraft (MEAs) and maritime UAS patrols; the realignment 
of vessels and personnel in Southern California through surge 
operations; and the expansion of our partnerships.
                         collaborative efforts
    Through collaboration and coordination with our many partners, we 
have made great strides with regard to the integrity and security of 
our maritime borders.
    In 2011, the CBP Commissioner, USCG Commandant, and U.S. 
Immigration and Customs Enforcement (ICE) Director signed the cross-
component Maritime Operations Coordination (MOC) plan. The plan 
addresses the unique nature of the maritime environment and sets forth 
a layered, DHS-wide approach to homeland security issues within the 
maritime domain, ensuring integrated planning, information sharing, and 
increased response capability in each area of responsibility.
    OAM has been an integral part of successful interagency counter-
narcotics missions. For example, operating in coordination with the 
Joint Interagency Task Force--South (JIATF-S), OAM assets, including P-
3 aircraft, patrol a 6 million-square-mile area of the Western 
Caribbean and Eastern Pacific, known as the transit zone, in search of 
drugs and illicit migrants that are in transit toward United States' 
shores. OAM's distinctive detection capabilities allow highly-trained 
crews to identify emerging threats well beyond the land borders of the 
United States.
    In partnership with USCG, OAM developed a maritime variant of its 
Predator B unmanned aircraft system (UAS), called the Guardian, to 
increase reconnaissance, surveillance, targeting, and acquisition 
capabilities in maritime operating environments. OAM pilots, augmented 
by USCG personnel, use the Guardian to conduct long-range surveillance 
in support of joint counter-narcotics operations in the southeast 
coastal and Gulf of Mexico border regions and drug source and transit 
zones, where maritime radar is necessary to detect a variety of 
threats. The Guardian is a strategic asset for homeland security 
operated at and beyond the Nation's borders to overcome threats moving 
towards the United States.
    CBP, with assistance from several NASO Centers, USCG, DOD, along 
with State, local, and Tribal partners participate in Operation Blue 
Tempest. OAM supports this operation using P-3, DHC-8, MQ-9 (Guardian 
UAS) aircraft and marine interceptors. Operation Blue Tempest is 
intended to disrupt and seize drugs moving from the source zone through 
the transit zones on their way towards the United States. On-going 
missions provide aerial and maritime surveillance in transit/arrival 
zones allowing OAM to gather intelligence, develop a maritime database 
and exploit targets of opportunity that are conducting drug and alien 
smuggling in the California Coastal Region. The intelligence gained 
from these missions is shared among all operational participants. This 
intelligence may also be shared with the Government of Mexico (GoM) 
using vetted GoM Liaisons on staff at the AMOC. This sharing of 
information, which is done in coordination with the Drug Enforcement 
Administration (DEA) as the single point of contact on behalf of the 
United States with regards to drug-related matters in the foreign 
environment, is critical in identifying potential departure locations 
to better posture limited GoM and U.S. resources in response.
    OAM continues to engage with the USCG and DOD to identify and 
deploy enabling technologies that permit the expansion of overall 
maritime domain awareness and the integration of information and 
maritime sensor data throughout DOD and DHS. Through this partnership, 
OAM is negotiating with DOD to receive radar data from patrolling DOD 
air and surface assets along the California Coastline. AMOC already 
receives feeds from airborne DOD aircraft and is looking to the Navy 
Southern California Offshore Range as an additional source for enhanced 
maritime domain awareness. With the support of the DHS Science and 
Technology Directorate and the USCG Research and Development Center, 
prototype technologies have been deployed to the AMOC and USCG Los 
Angeles/Long Beach Sector, and are currently under evaluation. The 
Coastal Surveillance System (CSS) pilot has already shown promise in 
its ability to manage and coherently integrate various maritime sensor 
systems into a single picture, which can be then shared between 
stakeholders.
    DHS and CBP have cooperated in various law enforcement and border 
security efforts including conducting joint air interdiction operations 
with Mexican forces to increase apprehensions of suspect air traffic. 
CBP continues to enhance our partnerships with our international 
counterparts, as well as Federal, State, local, and Tribal law 
enforcement agencies and the public and private sectors to monitor, 
collect, analyze, and produce intelligence reporting on smuggling 
tactics, techniques, and procedures. Intelligence provides front-line 
personnel with a better understanding of the illicit transportation 
methods and concealment techniques they are likely to encounter. 
Coordination and cooperation among all entities that have a stake in 
our mission have been, and continue to be, paramount to an effective 
maritime security strategy. OAM continues to unify our enforcement 
efforts and expand collaboration with other agencies.
                         indicators of success
    OAM will continue to work with our partners to increase maritime 
domain awareness through shared intelligence, advancements in 
technology, and continued cooperative efforts in detection and 
interdiction.
    OAM efforts, in coordination with our partners, have resulted in 
the seizure of immense quantities of contraband, and disrupted 
considerable illicit activity before it reaches our shores. In fiscal 
year 2013, OAM conducted more than 73,500 flight hours and 44,500 
underway hours, resulting in the arrest of 2,997 individuals, the 
apprehension of more than 48,000 illegal migrants, over 3,100 weapons, 
$24,696,873.00 in currency, and the seizure of more than 820,000 pounds 
of illegal drugs which includes cocaine seizures valued at nearly $10 
billion and marijuana seizures valued at $1.8 billion.
    Over the last decade, OAM has evolved to counter the egregious 
threat of non-compliant vessels. OAM has developed capabilities to 
disable non-compliant vessels and prevent the more serious violators 
from reaching our communities. Since 2003, OAM has engaged in 108 
incidents involving marine warning and/or disabling rounds, and one 
incident involving air-to-vessel warning and disabling rounds. In each 
case, the criminals were safely brought to justice without incident or 
injury.
    We acknowledge that there is still work to do. The path forward is 
to improve our maritime domain awareness by continually enhancing our 
detection capabilities, maximizing maritime intelligence integration, 
increasing our resources, enhancing and expanding our technologies, and 
strategically aligning our resources to allow flexibility in responding 
to potential threats. OAM will continue to use a risk-based approach to 
adapt and align our personnel and assets as needed to address emerging 
and dynamic threats and to keep our maritime borders secure.
                               conclusion
    Chairwoman Miller, Ranking Member Jackson Lee, and Members of the 
subcommittee, thank you for this opportunity to testify about the work 
of CBP and OAM. With your support, we will continue to refine and 
further enhance the effectiveness of our detection and interdiction 
capabilities. I look forward to answering any questions you may have at 
this time.

    Mrs. Miller. Thank you very much, Commissioner Alles.
    The Chairwoman now recognizes Mr. Caldwell for his 
testimony.

   STATEMENT OF STEPHEN L. CALDWELL, DIRECTOR, MARITIME AND 
  SECURITY COAST GUARD ISSUES, HOMELAND SECURITY AND JUSTICE 
          TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Caldwell. Chairman Miller, Ranking Member Jackson Lee, 
and other Members of the committee, thank you very much for 
inviting GAO to be here today to discuss how we secure our 
maritime borders.
    Based on GAO's prior work, there are several factors that 
are critical to securing those maritime borders. These are: 
Robust maritime domain awareness; assessment of risks from 
foreign ports; international partnerships; maritime 
surveillance, interdiction, and security operations; domestic 
partnerships along our coast and in our ports; and measuring 
maritime security.
    So Admiral Lee and General Alles have already discussed 
many of these same factors, so I think I will concentrate my 
comments on the last factor, which is: How do we measure the 
security of our maritime borders? My comments are in the spirit 
of the bill you had in the last Congress, H.R. 1417, a bill 
with bipartisan support from Chairman McCaul, Chairman Miller, 
as well as Representatives Thompson and Jackson Lee.
    H.R. 1417 called for DHS to develop and implement metrics 
on the effectiveness of security in the maritime environment. 
Some of these potential metrics, for example, were undocumented 
migrant interdiction rates, illicit drug removal rates, cocaine 
removal rates in the Transit Zone, response rates for assets to 
arrive on scene.
    These metrics are definitely a good start. However, there 
are going to be many challenges coming up with additional 
meaningful metrics. As you know, some of the H.R. 1417 metrics 
depend on estimates of things that are pretty hard to estimate, 
such as the actual flow of illegal migrants and drugs.
    GAO's prior work has shed some light on both some of the 
progress and the challenges that we have made as a Nation in 
terms of measuring the security of our maritime borders. Some 
of the problems I have noted in my written statement, including 
cases where there is a lack of reliable or accurate data. There 
is a case where we have data but it is not being used to manage 
our programs. In some cases, there is just a lack of outcome-
based measures.
    In our November 2011 report, we took a detailed look at the 
Coast Guard's attempts to measure risk reduction related to its 
maritime security mission. Coast Guard, to its credit, did try 
to develop a measure that identified the percentage of 
reduction in maritime security risks resulting from various 
Coast Guard activities. However, given the relative dearth of 
actual maritime attacks or incidents, the Coast Guard used 
subject-matter experts to estimate these risks as a proxy 
measure to try to get at how we may have prevented, say, the 
radical terrorist attack.
    This exercise demonstrated that estimating risk reduction 
itself is inherently uncertain, as this measure is based 
largely on subjective measures of Coast Guard--subjective 
judgments of Coast Guard personnel. Therefore, the risk-
reduction results that were reported and have been reported for 
several years were not based on measurable or observable 
activities but on those judgments.
    Looking at the Coast Guard's broader maritime mission set, 
things like search-and-rescue and vessel safety, that makes it 
even more difficult for Coast Guard to use such measurements of 
security measures to manage its resources. So one of the 
challenges is going to be, can you combine a variety of the 
missions combined by Coast Guard and CBP to look at some of 
these broad measurements of mission success as well as some of 
the more specific ones?
    In closing, GAO will continue to work with this committee 
and the Congress as a whole to help agencies develop and refine 
performance measures that can measure the security of our 
maritime borders. Such measures can help agencies better gauge 
their progress and better manage their workforce and their 
assets.
    Thank you very much. I will be happy to respond to 
questions. Thank you.
    [The prepared statement of Mr. Caldwell follows:]
               Prepared Statement of Stephen L. Caldwell
                           November 19, 2013
                             gao highlights
    Highlights of GAO-14-196T, a testimony before the Subcommittee on 
Border and Maritime Security, Committee on Homeland Security, House of 
Representatives.
Why GAO Did This Study
    Maritime borders are gateways to our Nation's maritime 
transportation system of ports, waterways, and vessels--which handle 
billions of dollars of cargo annually. An attack on this system could 
have dire consequences and affect the global economy. In addition, 
criminals could use small vessels to smuggle narcotics, aliens, and 
other contraband across U.S. maritime borders. Within DHS, the Coast 
Guard is responsible for many homeland security efforts in the maritime 
domain, including conducting port facility and commercial vessel 
inspections and coordinating maritime information-sharing efforts, 
among other things. In addition, CBP is responsible for screening 
incoming vessels' crews and cargo to facilitate the flow of legitimate 
trade and passengers.
    This testimony identifies key factors important to secure the 
maritime borders, and discusses progress and challenges in related DHS 
programs. This statement is based on products GAO issued from July 2003 
through October 2013.
What GAO Recommends
    GAO has made recommendations to DHS in prior reports to strengthen 
its maritime security programs. DHS generally concurred with these 
recommendations and has taken actions, or has actions under way, to 
address them.
  maritime security.--progress and challenges in key dhs programs to 
                      secure the maritime borders
What GAO Found
    GAO's prior work has identified several key factors important to 
secure the maritime borders. The Department of Homeland Security (DHS) 
and its components have made progress (e.g., coordinating with 
partners), and in some cases also experienced challenges with their 
related maritime security programs.
  <bullet> Maintaining robust maritime domain awareness.--It is 
        critical that Federal agencies maintain maritime domain 
        awareness--the understanding of anything associated with the 
        global maritime environment that could adversely affect the 
        security, safety, economy, or environment of the United States. 
        The U.S. Coast Guard has developed systems--including 
        information-sharing and vessel-tracking systems--to enhance 
        maritime domain awareness. GAO's prior work has found that the 
        Coast Guard has made progress in developing its systems, but 
        that it also experienced some challenges. For example, in July 
        2011, GAO reported that the Coast Guard had not met its goal of 
        building a system intended to enable the sharing of information 
        among its new offshore vessels and aircraft. GAO recommended 
        that the agency take actions to address this challenge. DHS 
        concurred and stated it planned to take actions.
  <bullet> Assessing risks coming from foreign ports.--The security of 
        maritime borders also depends upon security at foreign ports 
        where cargo bound for the United States originates. U.S. 
        Customs and Border Patrol (CBP) and the Coast Guard have 
        developed models to assess the risks of foreign ports, foreign 
        vessels entering U.S. ports, and the cargo carried by these 
        vessels from these ports. In September 2013, GAO found that CBP 
        has taken steps to enhance the security of U.S.-bound cargo, 
        but CBP does not periodically assess the supply chain security 
        risks from foreign ports that ship cargo to the United States. 
        GAO recommended that CBP periodically assess the supply chain 
        security risks from these ports. DHS concurred with GAO's 
        recommendation and reported that it planned to take actions to 
        address it.
  <bullet> Conducting maritime surveillance, interdiction, and security 
        operations.--Along the coasts and in ports, maritime 
        surveillance, interdiction, and operations are conducted to 
        ensure the security of the maritime borders. For example, CBP's 
        Office of Air and Marine is to provide maritime surveillance 
        and interdiction capabilities. In March 2012, GAO found that 
        the office did not meet its National performance goal and did 
        not provide higher rates of support in locations designated as 
        high-priority. GAO made recommendations to help ensure that the 
        office's assets and personnel are best positioned to 
        effectively meet mission needs and address threats, among other 
        things. DHS concurred and reported that it planned to take 
        action to address the recommendations by the end of March 2014.
  <bullet> Measuring performance.--In securing our maritime borders, 
        DHS and its component agencies have faced challenges in 
        developing meaningful performance measures. For example, GAO's 
        prior work found that they have experienced challenges 
        collecting complete, accurate, and reliable data; among other 
        things. In January 2011, GAO reported that both CBP and the 
        Coast Guard tracked the frequency of illegal seafarer incidents 
        at U.S. seaports, but the records of these incidents varied 
        considerably between the two component agencies and between the 
        agencies ' field and headquarters units. GAO made a 
        recommendation to improve the accuracy of DHS data, and DHS 
        concurred and has made progress in addressing the 
        recommendation.
    Chairman Miller, Ranking Member Jackson Lee, and Members of the 
subcommittee: Thank you for the opportunity to discuss key aspects of a 
secure maritime border. Maritime borders are gateways to our Nation's 
maritime transportation system of ports, waterways, and vessels, which 
handle billions of dollars of cargo annually. Accordingly, maritime 
borders are critical to our National security. For instance, an attack 
on this system could have a widespread effect on global shipping, 
international trade, and the global economy, and an attack on a 
domestic port could have dire consequences because of the size of ports 
and their general proximity to metropolitan areas. Further, criminals 
could use small vessels to smuggle narcotics, aliens, and other 
contraband across U.S. maritime borders. Balancing maritime security 
concerns with the need to facilitate the free flow of people and 
commerce remains an on-going challenge for the public and private 
sectors alike.
    Within the Department of Homeland Security (DHS), the U.S. Coast 
Guard has much of the responsibility for ensuring the safety and 
security of U.S. maritime interests and leading homeland security 
efforts in the maritime domain. In this capacity, the Coast Guard 
conducts port facility and commercial vessel inspections, coordinates 
maritime information-sharing efforts, and promotes maritime domain 
awareness, among other things.\1\ Also within DHS, U.S. Customs and 
Border Protection (CBP) is responsible for screening incoming vessels' 
crews and cargoes for the presence of contraband, such as weapons of 
mass destruction, illicit drugs, or explosives, while facilitating the 
flow of legitimate trade and passengers. Several other DHS components, 
such as the Transportation Security Administration, the Domestic 
Nuclear Detection Office, and the Federal Emergency Management Agency, 
also have roles in securing our maritime borders.\2\
---------------------------------------------------------------------------
    \1\ Maritime domain awareness is the understanding by stakeholders 
involved in maritime security of anything associated with the global 
maritime environment that could adversely affect the security, safety, 
economy, or environment of the United States.
    \2\ The Transportation Security Administration has responsibility 
for managing the Transportation Worker Identification Credential 
program, which is designed to control the access of maritime workers to 
regulated maritime facilities in the United States. The Domestic 
Nuclear Detection Office is responsible for acquiring and supporting 
the deployment of radiation detection equipment, including radiation 
portal monitors at domestic seaports to support the scanning of cargo 
containers before they enter U.S. commerce. The Federal Emergency 
Management Agency is responsible for administering grants intended to 
improve the security of the Nation's highest-risk port areas.
---------------------------------------------------------------------------
    My statement today identifies key factors that are important to 
secure the maritime borders and discusses progress and challenges in 
related DHS programs. Specifically, I will address the following 
factors: (1) Maritime domain awareness; (2) risks from foreign ports; 
(3) international partnerships in global supply chain security; (4) 
maritime surveillance, interdiction, and security operations; (5) 
partnerships and coordination along the coasts and in ports; and (6) 
measuring performance.
    My statement is based on reports and testimonies we issued from 
July 2003 through October 2013 related to maritime, port, vessel, and 
cargo security and other related aspects of maritime border security. 
To perform the work for our previous reports and testimonies, we 
visited domestic and overseas ports; reviewed agency program documents, 
port security plans, and other documents; and interviewed officials 
from the Federal, State, local, private, and international sectors, 
among other things. The officials we met with represented a wide 
variety of stakeholders including the Coast Guard, CBP, port 
authorities, terminal operators, vessel operators, foreign governments, 
and international trade organizations. Further details on the scope and 
methodology for the previously-issued reports and testimonies are 
available within each of the published products. We conducted the work 
on which this statement is based in accordance with generally accepted 
Government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
 several factors are important to secure maritime borders and dhs has 
          made progress to address them, but challenges remain
    Our prior work has identified several key factors important to 
securing the maritime borders, which include: (1) Maintaining robust 
maritime domain awareness, (2) assessing risks coming from foreign 
ports, (3) leveraging international partnerships, (4) conducting 
maritime surveillance, interdiction, and security operations, (5) 
coordinating with partners along the coast and in ports, and (6) 
measuring performance. Our prior work has also shown that DHS and its 
components have made progress, and in some cases experienced 
challenges, with their programs to address these factors.
Maintaining Robust Maritime Domain Awareness
    To ensure the security of our maritime borders, it is critical that 
Federal agencies maintain robust maritime domain awareness. According 
to the National Plan to Achieve Maritime Domain Awareness, the maritime 
domain provides an expansive pathway around the world that terrorist 
organizations could exploit for moving equipment and personnel, as well 
as a means for launching attacks. Timely awareness of the maritime 
domain and knowledge of threats helps the Coast Guard to detect, deter, 
interdict, and defeat adversaries. For example, according to the Coast 
Guard, maritime domain awareness played a key role in allowing it to 
interdict narcotics, intercept thousands of alien migrants, detain 
hundreds of suspected smugglers, board foreign vessels to suppress 
illegal fishing, and rescue thousands of people.
    To enhance maritime domain awareness, the Coast Guard works with 
its maritime partners to facilitate the sharing and dissemination of a 
wide array of information and intelligence to better secure the 
Nation's maritime transportation system against potential threats. The 
Coast Guard has made progress in developing its maritime domain 
awareness systems--including its Common Operational Picture--by 
increasing user access and adding data sources.\3\ The Coast Guard also 
has related systems that can be used to provide enhanced maritime 
domain information to Coast Guard units and port partners. However, as 
we previously reported, the Coast Guard experienced challenges in 
developing and implementing these systems. For example, in July 2011, 
we reported that the Coast Guard had not met its goal of building a 
single, fully interoperable Command, Control, Communications, 
Computers, Intelligence, Surveillance, and Reconnaissance program 
system intended to enable the sharing of information among its new 
offshore vessels and aircraft.\4\ In addition, in February 2012, we 
reported that the intended information-sharing capabilities of the 
Coast Guard's WatchKeeper software--which was designed to gather data 
to help port partner agencies collaborate in the conduct of operations 
and share information, among other things--met few port partner agency 
needs. This is, in part, because the Coast Guard did not determine 
these needs when developing the system.\5\ Further, in April 2013, we 
reported that, among other things, the Coast Guard had not followed its 
own information technology development guidance when developing one of 
its new maritime domain awareness systems, known as Coast Guard One 
View.\6\ We recommended, and the Coast Guard concurred, that it take 
actions to address these challenges. DHS stated that it planned to take 
actions to address these recommendations, such as developing necessary 
acquisition documentation.
---------------------------------------------------------------------------
    \3\ The Common Operational Picture is an interactive, map-based 
information system that can be shared among Coast Guard commands.
    \4\ GAO, Coast Guard: Action Needed as Approved Deepwater Program 
Remains Unachievable, GAO-11-743 (Washington, DC: July 28, 2011).
    \5\ GAO, Maritime Security: Coast Guard Needs to Improve Use and 
Management of Interagency Operations Centers, GAO-12-202 (Washington, 
DC: Feb. 13, 2012).
    \6\ GAO, Coast Guard: Clarifying the Application of Guidance for 
Common Operational Picture Development Would Strengthen Program, GAO-
13-321 (Washington, DC: Apr. 25, 2013).
---------------------------------------------------------------------------
    In addition to its own systems, the Coast Guard also relies on 
systems operated by other entities to help it track vessels and enhance 
maritime domain awareness. For example, to track vessels at sea, the 
Coast Guard uses a long-range identification and tracking system and an 
automatic identification system that broadcasts information on the 
vessels and their locations. To track vessels in U.S. coastal areas, 
inland waterways, and ports, the Coast Guard operates a land-based 
automatic identification system and also obtains information from radar 
and cameras in some ports. In March 2009, we reported on the challenges 
of tracking small vessels using available technologies.\7\ For example, 
we reported that although the Coast Guard and other agencies may have 
technology systems that can track small vessels within some ports, 
these did not always work in bad weather or at night. In September 
2012, we reported that the expansion of vessel tracking technology to 
all small vessels may be of limited utility because of, among other 
things, the large number of small vessels, the difficulty in 
identifying threatening actions, and the challenges associated with 
getting resources on scene in time to prevent an attack once it has 
been identified.\8\ DHS and its components--such as the Coast Guard and 
CBP--have started or completed initiatives to improve maritime domain 
awareness in order to address small vessel security risks, including an 
initiative to help CBP better track small vessels arriving from foreign 
locations and another initiative to assist the Coast Guard in assessing 
and monitoring small vessel launch sites.
---------------------------------------------------------------------------
    \7\ GAO, Maritime Security: Vessel Tracking Systems Provide Key 
Information, but the Need for Duplicate Data Should Be Reviewed, GAO-
09-337 (Washington, DC: Mar. 17, 2009).
    \8\ GAO, Maritime Security: Progress and Challenges 10 Years after 
the Maritime Transportation Security Act, GAO-12-1009T (Washington, DC: 
Sept. 11, 2012).
---------------------------------------------------------------------------
Assessing Risks Coming from Foreign Ports
    The security of maritime borders also depends, in part, upon 
security at foreign ports where cargo and vessels bound for the United 
States may originate. CBP and the Coast Guard have developed models to 
assess the risks of cargo carried by these vessels, foreign ports, and 
foreign vessels entering U.S. ports. In particular, CBP developed the 
Container Security Initiative (CSI) program that places officials at 
select foreign ports to use intelligence and risk assessment 
information to determine whether U.S.-bound cargo container shipments 
from those ports are at risk of containing weapons of mass destruction 
or other terrorist contraband.\9\ CBP's selection of the initial 23 CSI 
ports in 2002 was primarily based on the volume of U.S.-bound 
containers, but beginning in 2003, CBP considered more threat 
information when it expanded the number of CSI ports.\10\ In our 
September 2013 report, we reported that CBP had not assessed the risk 
posed by foreign ports that ship cargo to the United States since 
2005.\11\ In 2009, CBP developed a model that ranked 356 potential 
expansion ports for a related program on the basis of risk, but it was 
not implemented because of budget cuts. We found in September 2013 that 
by applying CBP's risk model to fiscal year 2012 cargo shipment data, 
CSI did not have a presence at about half of the ports CBP considered 
high-risk, and about one fifth of the existing CSI ports were at lower-
risk locations. As a result, we recommended that CBP periodically 
assess the supply chain security risks from foreign ports that ship 
cargo to the United States and use the results to inform any future 
expansion of CSI and determine whether changes need to be made to 
existing CSI ports. DHS concurred with our recommendation and reported 
that by December 2014 it plans to develop a process for conducting 
periodic assessments of the supply chain security risks from all ports 
that ship cargo to the United States and use information from the 
assessments to determine if future expansion or adjustments to CSI 
locations are appropriate.
---------------------------------------------------------------------------
    \9\ As of July 2013, there were 58 CSI ports in 32 countries that, 
collectively, accounted for over 80 percent of the container shipments 
imported into the United States.
    \10\ We reported in September 2013 that CBP subsequently added 35 
ports to the CSI program from 2003 through 2007 on the basis of 
additional criteria, such as strategic threat factors and diplomatic or 
political considerations.
    \11\ GAO, Supply Chain Security: DHS Could Improve Cargo Security 
by Periodically Assessing Risks from Foreign Ports, GAO-13-764 
(Washington, DC: Sept. 16, 2013).
---------------------------------------------------------------------------
    While CBP is focused on the security of the cargo shipped to the 
United States from foreign ports, the Coast Guard is focused on the 
security of ports and the vessels arriving in the United States. Under 
the International Port Security program, Coast Guard officials visit 
foreign ports to evaluate their antiterrorism security measures against 
established international standards. We reported in October 2007 that 
the Coast Guard had found that most of the over 100 countries it 
visited had substantially implemented international standards.\12\ More 
recently, the Coast Guard reported in November 2013 that it had visited 
over 150 countries. In September 2012, we reported that the Coast Guard 
had made progress with implementing its International Port Security 
program despite a number of challenges.\13\ For example, we reported 
that the Coast Guard was able to alleviate sovereignty concerns of some 
countries by including a reciprocal visit feature in which the Coast 
Guard hosts foreign delegations to visit U.S. ports. Further, as we 
reported in September 2013, the Coast Guard developed a risk-informed 
model--that it updates annually--as part of its International Port 
Security program to regularly assess the potential threat foreign ports 
pose to the maritime supply chain and make operational decisions.\14\ 
According to the Coast Guard International Port Security Program: 
Annual Report 2012, the Coast Guard uses the model to make informed 
decisions on how to engage each country with the International Port 
Security program, including: (1) How often to visit ports, (2) how many 
staff to assign to a particular visit, and (3) whether the country 
requires assistance.\15\
---------------------------------------------------------------------------
    \12\ GAO, Maritime Security: The SAFE Port Act: Status and 
Implementation One Year Later, GAO-08-126T, (Washington, DC: Oct. 30, 
2007).
    \13\ GAO-12-1009T.
    \14\ GAO-13-764.
    \15\ U.S. Coast Guard, International Port Security Program: Annual 
Report 2012 (Washington, DC: Mar. 31, 2012).
---------------------------------------------------------------------------
    In addition to assessing the security of foreign ports, the Coast 
Guard also uses the results of the International Port Security program 
to help determine which arriving foreign vessels to board and inspect 
through its Port State Control program. In particular, according to the 
Coast Guard's International Port Security Program: Annual Report 2012, 
the Coast Guard is to use risk-based criteria to identify which foreign 
vessels entering U.S. ports and waterways it considers to be at risk of 
noncompliance with international or domestic regulations, and perform 
compliance examinations of these vessels. The risk-based criteria used 
to make these decisions include the vessel's management, the flag state 
under which the vessel is registered, and the vessel's security 
compliance history resulting from previous examinations.
Leveraging International Partnerships in Global Supply Chain Security
    International partnerships based on international standards are 
another key aspect of secure maritime borders. For example, the 
International Ship and Port Facility Security (ISPS) Code was developed 
after the September 11, 2001, terrorist attacks to establish measures 
to enhance the security of ships and port facilities with a 
standardized and consistent security framework. The ISPS Code requires 
facilities to conduct an assessment to identify threats and 
vulnerabilities and then develop security plans based on the 
assessment. The requirements of this code are performance-based; 
therefore, compliance can be achieved through a variety of security 
measures. Additionally, in collaboration with 11 other members of the 
World Customs Organization, CBP developed the Framework of Standards to 
Secure and Facilitate Global Trade (SAFE Framework), which is based, in 
part, on the core concepts of CBP programs and provides standards for 
collaboration among customs administrations and entities participating 
in the supply chain.\16\ The SAFE Framework was adopted by the 173 
World Customs Organization member customs administrations in June 2005; 
and as of our last report on this topic in July 2008, 154 had signed 
letters of intent to implement the standards.
---------------------------------------------------------------------------
    \16\ The World Customs Organization is an intergovernmental 
organization representing the customs administrations of 173 countries 
that aims to enhance the effectiveness and efficiency of customs 
administrations.
---------------------------------------------------------------------------
    CBP and the Coast Guard also leverage relationships with private-
industry stakeholders and foreign partners to promote the security of 
maritime borders, given that protecting domestic ports begins outside 
the United States where inbound shipments enter the supply chain. For 
example, the Customs-Trade Partnership Against Terrorism (C-TPAT) 
program is a voluntary program that enables CBP officials to work in 
partnership with private companies to review and approve the security 
of their international supply chains.\17\ Companies that join the C-
TPAT program commit to improving the security of their supply chains 
and agree to provide CBP with information on their specific security 
measures. In addition, the companies agree to allow CBP to verify, 
among other things, that their security measures meet or exceed CBP's 
minimum security requirements. This allows CBP to ensure that the 
security measures outlined in a member's security profile are in place 
and effective.\18\ In April 2008, we reported that the C-TPAT program 
holds promise as part of CBP's multifaceted maritime security 
strategy.\19\ We also reported that the program allows CBP to develop 
partnerships with the trade community, which is a challenge given the 
international nature of the industry and resulting limits on CBP's 
jurisdiction and activities, and provides CBP with a level of 
information sharing that would otherwise not be available. However, our 
reports raised concerns about the overall management of the program and 
challenges in verifying that C-TPAT members meet security criteria. We 
recommended that CBP strengthen program management by developing 
planning documents and performance measures, and by improving the 
process for validating security practices of C-TPAT members. CBP agreed 
with these recommendations and has addressed them.
---------------------------------------------------------------------------
    \17\ In November 2001, CBP announced the C-TPAT program as part of 
its efforts toward facilitating the free flow of goods while ensuring 
that the containers do not pose a threat to homeland security. In 
October 2006, the Security and Accountability for Every Port Act of 
2006 established a statutory framework for the C-TPAT program, codified 
its existing membership processes, and added new components--such as 
time frames for certifying, validating, and revalidating members' 
security practices. 6 U.S.C.  961-973.
    \18\ In return for their participation in the program, C-TPAT 
members are entitled a reduced likelihood of scrutiny of their cargo. 
CBP has awarded initial C-TPAT certification--or acceptance of the 
company's agreement to voluntarily participate in the program--to over 
10,000 companies, as of February 2012.
    \19\ GAO, Supply Chain Security: U.S. Customs and Border Protection 
Has Enhanced Its Partnership with Import Trade Sectors, but Challenges 
Remain in Verifying Security Practices, GAO-08-240 (Washington, DC: 
Apr. 25, 2008).
---------------------------------------------------------------------------
    Additionally, through mutual recognition arrangements with foreign 
partners, the security-related practices and programs established by 
the customs or maritime security administration of one partner are 
recognized and accepted by the administration of another.\20\ Both CBP 
and the Coast Guard have entered into such arrangements. For example, 
CBP can expand the reach of its supply chain security programs (such as 
C-TPAT) through mutual recognition arrangements. According to the World 
Customs Organization, mutual recognition arrangements allow customs 
administrations to target high-risk shipments more effectively and 
expedite low-risk shipments by, for example, reducing redundant 
examinations. As we reported in September 2013, mutual recognition 
arrangements may allow the Coast Guard to allocate resources more 
efficiently and reduce risks.\21\ For example, we further reported that 
the Coast Guard signed a memorandum of understanding with the European 
Union that establishes a process for mutually recognizing security 
inspections of each other's ports.\22\ According to DHS documents and 
Coast Guard officials in Europe, by signing this memorandum of 
understanding, the Coast Guard plans to reassign some International 
Port Security officials from Europe to Africa, where certain countries 
are having more difficulties than others in implementing effective 
antiterrorism measures in their ports. Further, we reported that one 
trade-off of signing the memorandum of understanding is that Coast 
Guard's International Port Security officials will not have the same 
opportunities to have face-to-face interactions and share port security 
information and practices directly with their European Union 
counterparts as in the past. Despite this trade-off, Coast Guard 
officials stated that entering into such arrangements increases 
efficiencies and noted that they intend to negotiate additional 
memorandums of understanding with other foreign governments that have 
strong port inspection programs.
---------------------------------------------------------------------------
    \20\ Mutual recognition arrangements can be entered into with other 
countries as well as other governing bodies, such as the European 
Union. For the purposes of this testimony, the countries and governing 
bodies that enter into mutual recognition arrangements with the United 
States are considered partners.
    \21\ GAO-13-764.
    \22\ According to DHS officials, the European Union characterizes 
its port visits as ``inspections.'' Under the memorandum of 
understanding procedures, the Coast Guard recognizes a successful 
European Union inspection of its member states' ports in the same 
manner as it would recognize a successful country visit by Coast Guard 
inspectors. Coast Guard officials stated that they have collaborated 
with their European counterparts to develop standard operating 
procedures for these port inspections.
---------------------------------------------------------------------------
Conducting Maritime Surveillance, Interdiction, and Security Operations 
        along the Coast and in Ports
    Along the coast and in ports, maritime surveillance, interdiction, 
and security operations are conducted to ensure the security of 
maritime borders. For example, CBP's Office of Air and Marine provides 
maritime surveillance and interdiction capabilities. Its strategic 
assumptions include the ability to provide a 24-hour, 7-day-a-week 
response to border penetrations anywhere along the U.S. border, with a 
1-hour response time for areas designated as high-priority.\23\ We 
reported in March 2012 that as of May 2011, the Office of Air and 
Marine had placed about half of its air assets on the Southwest Border 
region and the remainder in the northern and southeast regions, while 
marine resources were distributed fairly evenly across the northern, 
southwest, and southeast regions.\24\ Further, our analysis of the 
Office of Air and Marine's fiscal year 2010 performance results 
indicate that they did not meet its National performance goal to 
fulfill greater than 95 percent of Border Patrol air support requests 
and did not provide higher rates of support in locations designated as 
high priority based on threats. We made recommendations to help ensure 
that the Office of Air and Marine's assets and personnel are best-
positioned to effectively meet mission needs and address threats, and 
to help DHS better leverage existing resources, eliminate unnecessary 
duplication, and enhance efficiencies. DHS concurred with these 
recommendations, and described actions it was taking, or planned to 
take to address them, including making strategic and technological 
changes in its assessment of the mix and placement of its resources by 
the end of March 2014.
---------------------------------------------------------------------------
    \23\ CBP's Office of Air and Marine resources are divided among 70 
air and marine locations across three regions (southeast, southwest, 
and northern); the National Capital area; and National Air Security 
Operations Centers throughout the continental United States, Puerto 
Rico, and the U.S. Virgin Islands. In deciding how resources should be 
allocated, considerations include historical location, Congressional 
direction, and differences in geography and relative need for air and 
marine support to address threats.
    \24\ The Office of Air and Marine has 23 branches and 6 National 
Air Security Operations Centers across these regions, and within the 
branches, the office may have one or more air or marine units. See GAO, 
Border Security: Opportunities Exist to Ensure More Effective Use of 
DHS's Air and Marine Assets, GAO-12-518 (Washington, DC: Mar. 30, 
2012).
---------------------------------------------------------------------------
    In addition to CBP's Office of Air and Marine interdiction and 
response activities, the Coast Guard conducts a number of activities to 
deter potential threats to the United States' maritime borders. For 
example, the Coast Guard escorts a certain percentage of high-capacity 
passenger vessels--cruise ships, ferries, and excursion vessels--and 
energy commodity tankers to protect against an external threat, such as 
a waterborne improvised explosive device. The Coast Guard also provides 
additional security response capabilities through its Maritime Safety 
and Security Teams and Maritime Security Response Teams. Created by the 
Maritime Transportation Security Act of 2002, the Maritime Safety and 
Security Teams constitute a maritime security antiterrorism force.\25\ 
The teams are managed as assets that may be deployed Nation-wide, and 
are responsible for safeguarding the public and protecting vessels, 
harbors, ports, facilities, and cargo in U.S. territorial waters. The 
teams are to maintain readiness to deploy to events such as terrorist 
threats or incidents and storm recovery operations, and routinely 
deploy to National special security events such as Super Bowls and 
presidential inaugurations. They are also to enforce security zones 
around high-interest vessels in transit and at other times when 
additional levels of security are needed within the Nation's ports and 
waterways. The Coast Guard's Maritime Security Response Team 
complements the Maritime Security and Safety Team, and is charged with 
maintaining a high readiness posture 365 days a year. The Maritime 
Security Response Team is the Coast Guard's advanced interdiction force 
for counterterrorism and law enforcement operations of a high-risk 
nature. The team provides a variety of advanced capabilities or skills, 
including addressing threats posed by weapons of mass destruction and 
vertically deploying from helicopters to engage potentially hostile 
personnel.
---------------------------------------------------------------------------
    \25\ See 46 U.S.C.  70106.
---------------------------------------------------------------------------
Coordinating with Partners along the Coast and in Ports
    Along the coast and in ports, partnerships and coordination among 
various stakeholders contribute to the security of the maritime 
borders. To target the threat of transnational terrorist and criminal 
acts along the coastal borders, the Maritime Operations Coordination 
Plan, established in 2011, directs CBP, the Coast Guard, and U.S. 
Immigration and Customs Enforcement's Homeland Security Investigations 
to utilize the fusion of their intelligence, planning, and operations 
capabilities through the formation of Regional Coordinating 
Mechanisms.\26\ The Coast Guard serves as the lead agency responsible 
for planning and coordinating among components. We reported in 
September 2013 that, according to the Coast Guard, there were 32 
Regional Coordinating Mechanisms as of June 2013 that aligned with 
Coast Guard sectors' geographic areas of responsibility.\27\ In 
addition to the lead agencies, other stakeholders include the Federal 
Bureau of Investigation; the Drug Enforcement Administration; the U.S. 
Attorney's Office; State, local, and Tribal law enforcement agencies; 
and foreign law enforcement agencies.
---------------------------------------------------------------------------
    \26\ The Maritime Operations Coordination Plan was signed by the 
Director of Homeland Security Investigations, the Commissioner of CBP, 
and the Commandant of the Coast Guard.
    \27\ GAO, Department of Homeland Security: Opportunities Exist to 
Enhance Visibility over Collaborative Field Mechanisms, GAO-13-734 
(Washington, DC: Sept. 27, 2013).
---------------------------------------------------------------------------
    In ports, Area Maritime Security Committees consist of key 
stakeholders who: (1) May be affected by security policies, and (2) 
share information and develop port security plans. These committees, 
which are required by Coast Guard regulations that implement the 
Maritime Transportation Security Act of 2002, also identify critical 
port infrastructure and risks to the port, develop mitigation 
strategies for these risks, and communicate appropriate security 
information to port stakeholders.\28\ Recommended committee members 
include a diverse array of port stakeholders, including Federal, State, 
and local agencies, as well as private-sector entities such as terminal 
operators, yacht clubs, shipyards, marine exchanges, commercial 
fishermen, trucking and railroad companies, organized labor, and trade 
associations. Area Maritime Security Committees also are to serve as 
forums for developing Area Maritime Security Plans. The Maritime 
Transportation Security Act of 2002 required the Coast Guard to develop 
Area Maritime Security Plans--to be updated every 5 years--for ports 
throughout the Nation.\29\ The Coast Guard develops these plans for 
each of the 43 geographically-defined port areas with input from 
applicable Governmental and private entities, and the plans are to 
serve as the primary means to identify and coordinate Coast Guard 
procedures related to prevention, protection, and security. In March 
2007, we reported that there was a wide variance in ports' natural 
disaster planning efforts and that Area Maritime Security Plans--
limited to security incidents--could benefit from unified planning to 
include an all-hazards approach. We recommended that DHS encourage port 
stakeholders to use existing forums for discussing all-hazards 
planning.\30\ DHS concurred with our recommendation and implemented it 
through the fiscal year 2007 Port Security Grant Program supplemental 
program, which was designed, in part, to facilitate the development of 
a Port-Wide Risk Management/Mitigation and Business Continuity/
Resumption of Trade Plan.\31\
---------------------------------------------------------------------------
    \28\ 33 C.F.R.  103.300-.310.
    \29\ 46 U.S.C.  70103(b)(2)(G). In 2006, the Security and 
Accountability for Every Port Act of 2006 (SAFE Port Act) added a 
requirement that AMSPs include recovery issues by identifying salvage 
equipment able to restore operational trade capacity. 46 U.S.C.  
70103(b)(2)(G).
    \30\ 46 U.S.C.  70103(b). GAO, Port Risk Management: Additional 
Federal Guidance Would Aid Ports in Disaster Planning and Recovery. 
GAO-07-412 (Washington, DC: Mar. 28, 2007).
    \31\ Fiscal year 2007 Port Security Grant Program supplemental 
program funding supports the development of a plan that emphasizes 
port-wide partnerships, regional management of risk, and business 
continuity/resumption of trade. The central plan focuses on security 
across the port area and articulates a strategy for ensuring business 
continuity and resumption of trade within the port in the event of an 
emergency.
---------------------------------------------------------------------------
Measuring Maritime Security
    Another important aspect of a secure border is measuring maritime 
security. In the DHS component agencies' implementation of the various 
maritime security related programs I have described today, and as we 
have previously reported, one of the challenges that DHS and its 
component agencies have faced has been the lack of adequate performance 
measures. The following are some of the performance measurement 
challenges we have reported on:
  <bullet> Lack of reliable and accurate data.--DHS and its component 
        agencies have experienced challenges collecting complete, 
        accurate, and reliable data. For example, in January 2011, we 
        reported that both CBP and the Coast Guard tracked the 
        frequency of illegal seafarer incidents at U.S. seaports, but 
        the records of these incidents varied considerably between the 
        two component agencies and between the agencies' field and 
        headquarters units.\32\ As a result, the data DHS used to 
        inform its strategic and tactical plans were of undetermined 
        reliability. We recommended that CBP and the Coast Guard 
        determine why their data varied and jointly establish a process 
        for sharing and reconciling records of illegal seafarer entries 
        at U.S. seaports. DHS concurred and has made progress in 
        addressing the recommendation.
---------------------------------------------------------------------------
    \32\ Illegal seafarers include both absconders (seafarers CBP has 
ordered detained on-board a vessel in port, but who depart a vessel 
without permission) and deserters (seafarers CBP grants permission to 
leave a vessel, but who do not return when required). GAO, Maritime 
Security: Federal Agencies Have Taken Actions to Address Risks Posed by 
Seafarers, but Efforts Can Be Strengthened, GAO-11-195 (Washington, DC: 
Jan. 14, 2011).
---------------------------------------------------------------------------
  <bullet> Not using data to manage programs.--DHS and its component 
        agencies have not always had or used performance information to 
        manage their missions. For example, we reported in February 
        2008 that Coast Guard officials used their Maritime Information 
        for Safety & Law Enforcement database--the Coast Guard's 
        primary data system for documenting facility inspections and 
        other activities--to review the results of inspectors' data 
        entries for individual maritime facilities, but the officials 
        did not use the data to evaluate the facility inspection 
        program overall.\33\ We found that a more thorough evaluation 
        of the facility compliance program could provide information 
        on, for example, the variations we identified between Coast 
        Guard units in oversight approaches, the advantages and 
        disadvantages of each approach, and whether some approaches 
        work better than others. We recommended that the Coast Guard 
        assess its Maritime Information for Safety & Law Enforcement 
        compliance data, including the completeness and consistency of 
        the data and data field problems, and make any changes needed 
        to more effectively utilize the data. The Coast Guard agreed 
        and has reported taking actions to address the recommendation. 
        These actions include hiring a full-time management and program 
        analyst to consistently review the data for trends and gaps, 
        and developing training resources, help desks, and conferences, 
        among other things, to help field personnel track changes to 
        Maritime Information for Safety & Law Enforcement and to 
        improve data entry time and consistency.
---------------------------------------------------------------------------
    \33\ GAO, Maritime Security: Coast Guard Inspections Identify and 
Correct Facility Deficiencies, but More Analysis Needed of Program's 
Staffing, Practices, and Data, GAO-08-12 (Washington, DC: Feb. 14, 
2008).
---------------------------------------------------------------------------
  <bullet> Lack of outcome-based performance measures.--DHS and its 
        component agencies have also experienced difficulties 
        developing and using performance measures that focus on 
        outcomes. Outcome-based performance measures describe the 
        intended result of carrying out a program or activity. For 
        example, although CBP had performance measures in place for its 
        C-TPAT program, these measures focused on program participation 
        and facilitating trade and travel and not on improving supply 
        chain security, which is the program's purpose. We made 
        separate but related recommendations in July 2003, March 2005, 
        and April 2008 that CBP develop outcome-based performance 
        measures for this program.\34\ CBP concurred, and, in response 
        to our recommendations, identified measures to quantify actions 
        required and to gauge C-TPAT's impact on supply chain security. 
        The Coast Guard has faced similar issues with developing and 
        using outcome-based performance measures. For example, we 
        reported in November 2011 that the Coast Guard developed a 
        measure to report its performance in reducing maritime risk, 
        but faced challenges using this measure to inform 
        decisions.\35\ The Coast Guard reported it has improved the 
        measure to make it more valid and reliable and stated it 
        believes it is a useful proxy measure of performance, but notes 
        that developing outcome-based performance measures is 
        challenging because of limited historical data on maritime 
        terrorist attacks.
---------------------------------------------------------------------------
    \34\ See GAO, Container Security: Expansion of Key Customs Programs 
Will Require Greater Attention to Critical Success Factors, GAO-03-770 
(Washington, DC: Jul. 25, 2003); Cargo Security: Partnership Program 
Grants Importers Reduced Scrutiny with Limited Assurance of Improved 
Security, GAO-05-404 (Washington, DC: Mar. 11, 2005); and Supply Chain 
Security: U.S. Customs and Border Protection Has Enhanced Its 
Partnership with Import Trade Sectors, but Challenges Remain in 
Verifying Security Practices, GAO-08-240 (Washington, DC: Apr. 25, 
2008).
    \35\ GAO, Coast Guard: Security Risk Model Meets DHS Criteria, but 
More Training Could Enhance Its Use for Managing Programs and 
Operations, GAO-12-14 (Washington, DC: Nov. 17, 2011).
---------------------------------------------------------------------------
    Chairman Miller, Ranking Member Jackson Lee, and Members of the 
subcommittee, this completes my prepared statement. I would be happy to 
respond to any questions you may have at this time.

    Mrs. Miller. Thank you very much.
    The Chairwoman now recognizes Captain Woodring for his 
testimony.

  STATEMENT OF CAPTAIN MARCUS WOODRING, USCG (RET.), MANAGING 
 DIRECTOR, HEALTH, SAFETY, SECURITY, AND ENVIRONMENTAL BRANCH, 
                   PORT OF HOUSTON AUTHORITY

    Captain Woodring. Good morning, Chairwoman Miller, Ranking 
Member Jackson Lee, and distinguished Members of the 
subcommittee.
    Chairwoman Miller, thank you for holding this important 
hearing today.
    To Ranking Member Jackson Lee, thank you for again inviting 
the Port of Houston Authority as the industry witness.
    As you know, the Port of Houston is in the Ranking Member's 
district, and we appreciate her supportive engagement.
    The Port of Houston is comprised of the Port Authority's 8 
terminals, along with more than 150 private terminals. For 17 
consecutive years, the port has ranked first in the United 
States in foreign waterborne tonnage, trading with over 200 
ports of call globally, making us a true maritime border.
    Results of a recent economic impact study show that ship-
channel-related businesses at the Port of Houston are 
responsible for more than 2.1 million jobs, generate $499 
billion in annual economic activity, and contribute over $52 
billion in annual tax revenue nationally. Just yesterday, we 
had the Vice President of the United States stop to visit our 
Bayport Container Terminal, underscoring the importance of our 
Nation's ports in economic growth, as he traveled to visit the 
expanding Panama Canal.
    We have heard about a layered approach to border security, 
starting with offshore interdiction, all the way to the sea 
buoy. My focus today will be on the industry efforts to secure 
the border within the port. Our efforts use both physical 
assets and professional partnerships.
    For physical assets, the U.S. Coast Guard, Customs and 
Border Protection, the Harris County Sheriff's Office, and the 
Houston Police Department all maintain patrol vessels. 
Surveillance flights are also conducted on a regular basis by 
these same agencies.
    Those are the Federal and local resources, but how does 
industry link in? The story of the Houston Ship Channel 
Security District, a unique public-private partnership, clearly 
shows the direct relationship between assets and partnerships.
    In the aftermath of 9/11, Government began putting more 
stringent controls in place in the maritime domain. The 
industrial facilities and companies of the Port of Houston came 
to the table and essentially said, we don't have law 
enforcement authority or jurisdiction, but we want to help, as 
our businesses have the most to lose if things go wrong.
    In 2007, the Texas legislature, backed by industry, passed 
a bill creating the Houston Ship Channel Security District. 
Assessments are paid annually by the facilities within the 
boundaries of the district. The overarching purpose is to 
provide greater security by supporting initiatives to enhance 
capabilities and joint operational readiness, ultimately 
ensuring maritime commerce flows unabated, therefore drives our 
economy.
    Examples include: Providing matching funds for a port 
security grant to purchase a Harris County Sheriff's Office 
patrol vessel; providing matching funds for Harris County to 
install over 100 cameras at 33 sites to monitor the maritime 
domain; purchasing the fuel used by the Houston Police 
Department helicopter to patrol the ship channel; and funding a 
watch center to monitor the camera system.
    Besides funding projects, the district also enhances 
partnerships. The Houston Ship Channel Security District 
cameras are linked to the U.S. Coast Guard and the Port of 
Houston Authority, with the district receiving access to both 
our camera systems in return. The force-multiplying effect is 
tremendous.
    I will conclude my remarks by focusing on the collaborative 
nature of maritime security in the Port of Houston.
    We meet regularly as part of the Area Maritime Security 
Committee, the Central Texas Coastal Area Committee, and the 
Lone Star Harbor Safety Committee. Each of these committees 
provides a constant opportunity for industry to interact with 
key local, State, and Federal agency leaders.
    We recently held our annual security drill at the Barbours 
Cut Container Terminal. Over 170 participants from 50 different 
agencies, entities, or companies came together to address a 
dirty bomb scenario.
    Within their budgetary constraints, both the U.S. Coast 
Guard and Customs and Border Protection provide outstanding 
service to the Port of Houston. They come to work daily with 
the mentality that they must keep commerce flowing for the 
National good while also enforcing the mandated regulatory 
requirements. At the local level, they are considered leaders, 
partners, and valued teammates.
    An excerpt from a U.S. Coast Guard study summarizes my last 
point: ``Port partnerships are predictably strongest, most 
collegial, and most productive where major calamities have 
necessitated life-or-death relationships of trust. This is most 
evident in the partner interviews in New York and Houston, 
where partners seek each other out for after-work social and 
morale activities in addition to a high degree of work-focused 
collaboration.''
    I submit to you today that technology and resources are 
critical to maintaining maritime security, but dedicated people 
and trusting partnerships are equally as important. The 
industries of the Port of Houston are proud to contribute to 
both.
    Thank you, and I look forward to your questions.
    [The prepared statement of Captain Woodring follows:]
             Prepared Statement of Captain Marcus Woodring
                           November 19, 2013
    Good morning Chairman Miller, Ranking Member Jackson Lee, and 
Members of the subcommittee, I am Marcus Woodring. I serve as the 
managing director for Health, Safety, Security, and Environmental 
(HSSE) at the Port of Houston Authority.
    We would like to thank Chairman Miller for holding this important 
hearing today. I must also recognize Ranking Member Jackson Lee for 
again inviting the Port of Houston Authority as an industry witness. As 
you know, the Port of Houston is in the Ranking Member's district and 
we continue to benefit from her leadership and advocacy on behalf of 
the Port.
    The Port of Houston is comprised of the Port Authority's eight 
public terminals along with more than 150 private terminals. The port 
is consistently ranked first in the United States in foreign water-
borne tonnage, trading with over 200 ports of call globally, making us 
a true maritime border.
    Results of a recent economic impact study show that ship channel-
related businesses at the Port of Houston are responsible for more than 
2.1 million jobs, generate $499 billion in annual economic activity, 
and contribute over $52 billion in annual tax revenue Nationally. Just 
yesterday, we had the vice president of the United States stop to visit 
our Bayport Container Terminal, underscoring the importance of our 
Nation's ports in economic growth, as he travelled to visit the 
expanding Panama Canal.
    At the most basic level, the Port of Houston would be unable to 
sustain its operations and economic significance in the global 
marketplace without border security. This ``border security'' 
encompasses many things, ranging from keeping unauthorized cargo and 
people from entering the United States, to protecting our environment 
from invasive species.
    We have heard about a ``layered approach'' to border security, 
starting with offshore interdiction all the way to the sea buoy. My 
focus today will be on the industry efforts to secure the border within 
the Port of Houston. Our efforts use both physical assets and 
professional partnerships.
    For physical assets, the U.S. Coast Guard, the Harris County 
Sheriff's Office, and the Houston Police Department all maintain patrol 
vessels for the Houston Ship Channel. The majority of the Houston Ship 
Channel has been designated a ``security zone'' since shortly after 9/
11. Other major channels into our Bayport and Barbours Cut Container 
Terminals are also designated security zones, i.e. ``off limits'', to 
recreational boaters. With the density of industrial activity, and 
really no recreational reason to be there, the overall impact to the 
public is minimal--yet provides safety for boaters and security for our 
Nation's largest petrochemical complex. Surveillance by helicopters is 
also conducted on a regular basis by these same agencies.
    Those are the Federal and local resources, but how does industry 
link in? The story of the Houston Ship Channel Security District, a 
unique public/private partnership, gives us the answer and clearly 
shows the direct relationship between assets and partnerships.
    In the aftermath of 9/11, the Federal, State, and local governments 
began putting more stringent controls in place within the maritime 
domain of the Houston Ship Channel. The industrial facilities and 
companies of the Port of Houston came to the table and essentially 
said--we don't have law enforcement authority or jurisdiction, but we 
want to help as our businesses have the most to lose if things go 
wrong. In 2007, the Texas Legislature passed a bill creating the 
Houston Ship Channel Security District. The legislation enabled the 
industry to tax itself and collect assessments paid annually by the 
facilities and companies within the boundaries of the District, with 
the goal of ensuring commerce continues to flow in an unimpeded 
fashion.
    The ultimate purpose of the Houston Ship Channel Security District 
is to provide a regional approach for providing greater degree of 
security and safety for facilities, employees, and communities 
surrounding the ship channel by supporting projects and initiatives to 
enhance the capabilities, communication, and joint operational 
readiness of existing law enforcement organizations.
    Examples include providing the matching funds for a Port Security 
Grant to purchase a Harris County Sheriff's Office patrol vessel, 
providing matching funds for Harris County to install 33 cameras to 
monitor the maritime domain, purchasing the fuel used by the Houston 
Police Department helicopter to patrol the ship channel, and funding a 
watch center to monitor the camera system.
    Each of these projects directly benefits industry's desire to 
secure the maritime border and keep commerce moving, reducing their 
liability for interruptions in the supply chain. None would have been 
possible without the mechanism called the Houston Ship Channel Security 
District.
    I'll conclude my remarks by focusing on the collaborative nature of 
maritime security in the Port of Houston. We meet regularly as part of 
the Area Maritime Security Committee, the Central Texas Coastal Area 
Committee, and the Lone Star Harbor Safety Committee. Each of these 
committees provides a constant opportunity for maritime personnel to 
interact with key local, State, and Federal agency leaders. We recently 
held our annual security drill, SECUREX 2013, at the Barbours Cut 
Container Terminal. Over 170 participants from 50 different agencies/
entities came together to address a ``dirty bomb'' scenario. While we 
pray that we never convene in a real-life scenario similar to this, we 
are well-prepared as a maritime community to respond.
    The partnerships extend well beyond these committees. The Houston 
Ship Channel Security District cameras I mentioned earlier are linked 
in to the U.S. Coast Guard and Port of Houston Authority, with the Ship 
Channel Security District receiving access to both our camera systems 
in return. The force-multiplying effect is tremendous.
    Within their budgetary constraints, both the U.S. Coast Guard and 
Customs and Border Protection provide outstanding service at the Port 
of Houston. They both come to work daily with the mentality that they 
must keep commerce flowing for the National good, while also enforcing 
the mandated regulatory requirements. At the local level, they are 
considered leaders, partners, and valued teammates in the maritime 
community.
    In 2009, the U.S. Coast Guard conducted a series of interviews at 
various ports around the Nation and published the results in the ``Port 
Interagency Information Sharing Study''. Maritime professionals from 
all segments of industry and Government were interviewed. An excerpt 
from this study summarizes the extremely strong nature of maritime 
security in the Port of Houston:

``Port partnerships are predictably strongest, most collegial, and most 
productive where major calamities have necessitated life-or-death 
relationships of trust. This was most evident in the partner interviews 
in New York and Houston, where partners seek each other for after-work 
social and morale activities, in addition to a high degree of 
professional work-focused collaboration''.

    I submit to you today that technology and resources are critical to 
maintaining maritime security, but dedicated people and trusting 
partnerships are equally important. The industries of the Port of 
Houston are proud to contribute to both.
    Thank you and I look forward to your questions.
   Attachment.--2013 Houston Ship Channel Security District Factsheet
               The Houston Ship Channel Security District
        the harris county houston ship channel security project
Surveillance System
  <bullet> 19 Landside Sites with Cameras/Sensors/Equipment
  <bullet> 14 Waterside Sites with Cameras/Sensors/Equipment
  <bullet> Command-and-Control System integrating Security Project, 
        Harris County, and Sheriff's Office assets
  <bullet> 24/7/365 monitoring by the Harris County Sheriff's Office 
        Security Monitoring and Analysis Center (SMAG)
  <bullet> Video Links to Regional Partners such as the United States 
        Coast Guard and the Port of Houston Authority Police Department
  <bullet> Upcoming: Select video links to industry partners and 
        District Members
Landside Assets
  <bullet> 9 Harris County Sheriff's Office Trucks
  <bullet> 3 Harris County Sheriff's Office, Baytown Police Department, 
        and Galena Park Police Department Sedans
  <bullet> 5 Port of Houston Authority Police Department Trucks
  <bullet> Radiological Detection Equipment
Waterside Assets
  <bullet> Four HCSO Marine Patrol Boats
  <bullet> One HCSO 36 SAFE Patrol Boat
  <bullet> Submersible Remotely Operated Vehicle
Communications Infrastructure
  <bullet> The Ring of Steel: a fiber communications network connecting 
        regional First Responders, Law Enforcement, Governmental 
        Planners, and Infrastructure Support Teams
  <bullet> 14 Public Safety LTE E-Node-B Sites Completed--the first 
        functional Public Safety LTE system in the Nation
                     hscsd law enforcement support
    HSCSD supports the Houston Police Department with funding for 
training and deployment of assets including:
  <bullet> MD500 Patrol Helicopter
  <bullet> Bell 412EP Twin Engine Tactical Support Helicopter
  <bullet> Three Rapid Response Trucks for the HPD Bomb Squad
  <bullet> Fast-Rope and Rappelling Equipment
  <bullet> Assault Armor Kits, Masks, and Radios
  <bullet> An Airborne Radiation Detector
    HSCSD supports the Harris County Sheriff's Office with funding for 
training, deployment, and maintenance of HCSO assets including:
  <bullet> Marine Unit Boat Fuel and Maintenance
  <bullet> Marine Unit Vehicle & Trailer Fuel and Maintenance
  <bullet> Landside Infrastructure Patrol Vehicle Fuel and Maintenance
  <bullet> SMAG Third Shift Surveillance Personnel
    HSCSD supports the city of Baytown with equipment designed to 
facilitate the deployment of the city's multi-mission Chemical, 
Biological, Radiological, Nuclear, and Explosive Weapons equipped boat 
that provides Type I HazMat and Bomb Squad/Explosives Team support and 
Type II Regional Structure Collapse/Technical Rescue services.

    Mrs. Miller. Thank you very much, Captain. We appreciate 
that.
    We appreciate the testimony of all the witnesses.
    You know, I can remember when I first came to Congress 
about a decade ago--hate to date myself here--but my first trip 
down to the border, looking at the vast expanses that we had on 
the land border and thinking that--at that time, we really 
weren't even using UAVs to assist in border security, and, of 
course, that has changed.
    I am just a huge proponent of UAVs. I think the 
application--I think they have been so incredibly in theater, 
and they have the application, certainly, of border security, 
whether that is in the land or the maritime environment. So I 
was listening to some of your testimony there and thinking 
about the Predators that you have.
    Also, just as you were talking about the panga boats that 
are continuing to move up the northern border of California 
there, more northerly than Los Angeles or San Diego, sort of, 
away from your cutters or your stations, et cetera, and the 
utilization of Predators--and we were looking at the amount of 
instances that you use the Predators, and apparently it has 
been a very limited amount in California.
    So I guess that is part of my question. How you are really 
utilizing the resources that you have in the maritime 
environment, not only along California, the California coast, 
but even along the--it is my understanding that the one that 
you have in Cape Canaveral is not functioning at this time and 
that there are three now in Corpus Christi.
    So they are all in Corpus Christi; is that so? If so, is 
that your plan going forward? Do you expect that you would keep 
them all there or move them around a bit? Or how is your vision 
of all of that? How short do you think you are on the amount of 
UAVs that you could really utilize optimally?
    That question for Commissioner Alles and perhaps Admiral 
Lee a bit, too.
    General Alles. All right, thank you, ma'am.
    As you indicated, the Predators are now all based out of 
Corpus Christi. There are currently two there; one was damaged 
in a hard landing and is being repaired currently at General 
Atomics in California.
    As I look at the Predator--so, one of the questions you 
asked is really about California operations. We have an 
operation called Blue Tempest, that we have done some limited 
Guardian operations out there. Guardian is the maritime variant 
of it, which has the sea view radar on it. We have flown around 
100 hours out on the California coast with that particular 
asset.
    We do have some limitations out there. There are a number 
of FAA restrictions to our California operations. So we have 
found the aircraft is working very effectively for us on the 
borders. It is working very effectively for us in the Transit 
Zone. It is currently in the Transit Zone with some Coast Guard 
personnel conducting a deployment there and is working well for 
us there. In the actual offshore U.S. environment, we are still 
working through a number of issues with the FAA to get the best 
employment out of the Predator.
    So partly why you don't see as much use there is I have 
based other maritime patrol aircraft--we have P-3s in 
Jacksonville. I have the Dash 8s in Jacksonville and Puerto 
Rico and New Orleans. I have the new maritime enforcement 
aircraft that we are building in San Diego. Those don't have 
those kinds of unmanned restrictions. So those have been the 
bulk of my maritime patrol capability out there, as opposed to 
the Guardian UAV.
    I would like to use it more in the future. We still, you 
know, are working through with the FAA as a process. They have 
been very cooperative. But they have a safety issue to work 
with, so we have to work through--I am talking about air 
traffic control clearance. So we just have to work through 
those issues with the FAA to get better utilization of it off 
of our coasts.
    Then, as far as equipment is concerned, I think we have a 
satisfactory quantity of the aircraft. It is really the amount 
of flying hours that I can put on the airplane, and that is 
based on the amount of flying-hour money I get per year. So I 
currently fly 5,000 to 6,000 hours a year for all the systems. 
I could go much higher than that, probably towards 9,000 or 
10,000, given sufficient funding, ma'am.
    Mrs. Miller. Appreciate that.
    Admiral.
    Admiral Lee. Yes, ma'am. My counterpart here in CBP is far 
more invested in the UAS program than we are. We are still in 
the test and evaluation phase. We have already tested the UAS 
ScanEagle on the Cutter Bertholf and the Stratton. We are going 
into Phase 2 of that test and evaluation right now. We see 
great potential for this in the realm of MDA.
    However, I must add this caveat: All the MDA in the world 
will be of little use unless we have an end-game in place. So 
we can detect and we can monitor, but if we don't have the 
capability to intercept and stop those threats--in this case, 
pangas and other sorts of surface vessels running illegal 
migrants or narcotics--then we lose the game. So we have to 
have the end-game to couple with the advancements in UAS.
    Mrs. Miller. Do you think the pangas are the greatest 
threat, really, to the maritime security of the coast?
    Admiral Lee. Well, I wouldn't necessarily say that, but I 
would say they are a significant threat. They are a significant 
threat because they are running around us.
    My counterparts in CBP and Border Patrol have done a 
fantastic job of securing the land border in the Southwest, and 
so that has pushed them into the maritime. Their tactics have 
changed over the past few years, and now they are going further 
and further out and further and further north up the coast of 
California. We are seeing them land as far north as San 
Francisco now. Where it used to be a southern-California issue, 
now it is a whole-of-California issue. They have the logistics 
in place do it, and we don't have enough patrol craft to be on 
top of them at this particular time.
    Mrs. Miller. To both of you, one other question: Talking 
about types of resources that we have had, the taxpayers have 
already paid for, that we gotten a good bang for our buck in 
theater, that have been successful, like the UAVs, et cetera, 
how are you doing--continuing to do?
    I know you have both advantaged yourself a bit of some of 
the returning equipment from theater. Is there anything that we 
can do to help you, as you are looking to resources that might 
be available? I know you are starting to use some of the 
rheostats and some of the various things, et cetera. Any 
comment on that or any help that we can assist you with in that 
regard?
    General Alles. I think, honestly, ma'am, we are getting 
good help from the committee on that. Most of those assets are 
going on the land borders. They are not--as you know, 
Afghanistan, Iraq have primarily been land issues. So most of 
that equipment fits better in that environment.
    We are getting--CBP is getting from the Marine Corps some 
UH-1Ns, some Iroquois that are going out of service. They were 
used overseas. So those are advantageous for us and will help 
us out as we do some of our service-life extensions on our UH-
60s.
    But I think overall have we gotten good cooperation on that 
and are starting to get good re-use out of some of the--
particularly the aerostat balloons along the Southern Border. 
The RGV balloon, the Rio Grande Valley balloon, as I recall, is 
now up.
    Mrs. Miller. The last thing before I recognize my Ranking 
Member, I hope you all look at this committee as a conduit to 
assist you with challenges that you run into, not just where 
you come and testify. You know, we are here to work together 
with you.
    As you are mentioning, Commissioner, about some of the 
challenges you are running into with the FAA, the FAA has their 
mission, right? But they have this airspace thing all over the 
country they will keep running into with various kinds of 
strategic deployments that we are trying to do for border 
security or homeland security, et cetera.
    So, believe me, I appreciate the job that the FAA does, but 
if there is anything that we can do, again, to be a conduit to 
assist you with that, please don't hesitate to ask us about 
that, as well.
    With that, I would recognize our Ranking Member.
    Ms. Jackson Lee. I thank the Chairwoman.
    Let me thank the witnesses for their testimony and their 
presence before this hearing.
    I want to start, Director Caldwell, with you, and hopefully 
we can weave through what I think are very important findings 
by the GAO.
    Just with an opening point of your report here that says 
why GAO did this study, just to frame it: ``An attack on this 
system could have dire consequences, and criminals could use 
small vessels to smuggle narcotics, aliens, and other 
contraband.'' Certainly, this is a system that handles billions 
of dollars of cargo, and so, in essence, this is a system that 
should not be ignored.
    I would like to take you through some of your suggestions, 
or recommendations, rather, and have you expand on them a 
little bit more.
    I believe that, with the potential opening of the Panama 
Canal, we could not have a larger question mark and need for an 
answer than the issue of maritime security. This is going to be 
a new frontier for our region. The magnitude of incoming ships 
will broaden, the competition will broaden, and, certainly, the 
potential for wreaking havoc will likewise be broadened.
    You indicated that you want a robust--or suggested a robust 
maritime domain awareness. Go into just--be pointed beyond your 
written testimony, please, regarding the United States as it 
relates to maritime security. What are those key words, 
``maritime domain awareness''? Do we need to have collaborators 
on that?
    Mr. Caldwell. Well, ``maritime domain awareness'' is very 
broad, and it starts very far out. So it starts with, 
obviously, the foreign waters and foreign ports that actually 
ship the things to us. Panama Canal is a good example of that. 
It is quite far from our waters, but it is going to be a case 
where we may have much larger ships with much larger cargos, 
many more containers, coming through there.
    So the main requirement in terms of that maritime domain 
awareness starts out there; it comes all the way into our own 
ports so that we know what is going on. You can even expand it 
to economic and issues of natural disasters.
    Ms. Jackson Lee. But how do you to that? Is that 
technology? Is that ships on water? Is that expanding Coast 
Guard? Obviously, there are waters within our boundaries and 
then beyond, open seas. What is your, just, pointed answer to 
that?
    Mr. Caldwell. Well, I think further away, obviously, it 
depends very heavily on international partnerships with other 
countries. A good example of these have already been cited in 
the deep Caribbean, where we are working with the Dutch, the 
French, the British, and other countries in terms of gathering 
information, sharing information, so that we can work as 
partners to identify the threats as they come in.
    Then closer to our shores, it depends maybe more on 
technology and coordination among the forces that we have, 
whether that is CBP, Coast Guard, Department of Defense, and 
others.
    Ms. Jackson Lee. Let me ask this other question. Your 
October 2012 report on CBP's model for assessing risks of 
inbound cargo containers--the Automated Targeting System model, 
also known as ATS--had some troubling conclusions about CBP's 
failure to regularly assess the performance of the ATS 
methodology used to assess risk and the rate at which ATS was 
currently identifying high-risk containers.
    Can you elaborate on what you found?
    Mr. Caldwell. Yes. We found that the ATS system was 
critical for CBP in identifying high-risk containers. We found 
that CBP was not regularly assessing that system, nor, when it 
did an update, was it evaluating whether the new updates were 
better than the model weights that they were replacing.
    Ms. Jackson Lee. Where are we now?
    Mr. Caldwell. We made recommendations that they do regular 
assessments, and the Department has pledged to do so, both DHS 
and CBP. We will be doing our update on that soon to find out 
what the status of that recommendation is, to decide whether we 
can close that.
    Ms. Jackson Lee. They have the tools and all to do the 
assessment, right?
    Mr. Caldwell. Yes. I think it is a question of focused 
attention, and, obviously, it requires people, as well, to 
provide that focus----
    Ms. Jackson Lee. So that is something that we can help 
with, is the idea of human resources, to be able to do that 
assessment.
    Mr. Caldwell. Sometimes I think it is just attention, you 
know, being paid at the top level of leadership, in terms of 
making sure that those regular assessments are done.
    Ms. Jackson Lee. But this was 2012 when you did your 
report. So you are going back again in 2014. You don't have an 
update, an interim----
    Mr. Caldwell. I can provide that for the record.
    Ms. Jackson Lee. Pardon me?
    Mr. Caldwell. I can provide that for the record----
    Ms. Jackson Lee. Would you, please?
    Mr. Caldwell [continuing]. To you, in terms of a detailed 
status.
    Ms. Jackson Lee. Great.
    Let me go quickly to your point about conducting maritime 
surveillance. I know this seems to go along with the question 
that I previously asked, but I am concerned about having on the 
waters those who are assessing threats regularly and then 
designing a response to those threats.
    I am going to also ask our admiral to answer that, as well.
    Mr. Caldwell. Let me just start. I think----
    Ms. Jackson Lee. Yes.
    Mr. Caldwell [continuing]. Admiral Lee has already talked 
about that you have to have a balance between what you can 
actually find through your surveillance resources and whether 
you actually have the resources to then persecute. You know, 
you know those threats are out there; do you actually have the 
boats to go out to get them at that distance, you know, armed 
as needed and meeting other requirements?
    Ms. Jackson Lee. Admiral, I know that Mumbai was not an 
example of, I believe, anything on our coast, but maybe there 
are places that are exposed. That was an unsecured little wharf 
with individuals coming up on little boats in the dark of 
night.
    But how are you assessing threats and revising strategies 
on those threats? Do you feel comfortable that you are able to 
assess those threats regularly?
    Admiral Lee. Well, I am going to answer that question in 
two parts.
    First off, how do we assess them? We are putting most of 
our energy and efforts into those ports and waterways where the 
most traffic flows, those large ports like New York, New 
Orleans, Los Angeles, et cetera, et cetera, because that is 
where someone with ill intent can do the most damage to our 
maritime transportation system.
    What keeps me and my colleagues up awake at night is the 
vulnerability that we have along our entire 95,000-mile 
maritime border, where anybody can pretty much come and go as 
they need. It is almost free-range. If somebody wanted to get 
into some smaller port to deliver something, they are proving 
that almost daily with the--all you have to do is look at the 
panga threat to see how easy it is for somebody to deliver a 
commodity to our shores. In that case, the commodity is 
marijuana. That commodity could be anything else. We are 
vulnerable. We are very vulnerable.
    Ms. Jackson Lee. This last question, may I just get to 
Captain Woodring?
    As a port that will benefit from the opening of the Panama 
Canal, as a port that handles an enormous amount of cargo, do 
you have the tools to be prepared for any enhanced security 
questions with the opening of the Panama Canal?
    Captain Woodring. Yes, ma'am, we do. We have already worked 
with Customs and Border Protection. They understand the plans, 
they understand the Panama Canal is expanding and are looking 
forward to making their internal resource request to make sure 
that we have enough officers there to keep commerce flowing out 
our gates.
    Ms. Jackson Lee. Okay. Thank you very much.
    Mrs. Miller. The Chairwoman recognizes the gentleman from 
Pennsylvania, Mr. Marino.
    Mr. Marino. Thank you, Chairwoman.
    Good morning, gentlemen. Thank you for being here. As a 
State and Federal prosecutor, I have seen what your efforts 
have done, and I commend you on it. Thank you so very much.
    Let me start out with asking you, with the assets that are 
seized and the cash that is seized--Rear Admiral Lee, if you 
would start--what happens with those funds? I think I know what 
the answer is, but I want the American people to hear it.
    Admiral Lee. Well, the assets that are seized are turned 
over, and after litigation is completed, the funds go into the 
Treasury. They don't come back to us.
    Mr. Marino. All right. That is the point I wanted to get 
across.
    Does anyone else have a different answer or would like to 
follow up on that?
    General Alles. Yeah, the only, kind-of, technical point on 
that is, as the admiral mentioned, they go into general fund. 
Any assets, like a conveyance, if it is seized and utilized by 
the Government, then, you know, that obviously becomes an asset 
of the Government. Otherwise, typically, for boats, since they 
tend to reappear over and over, we have them destroyed.
    Mr. Marino. Yeah. So nothing really--I am sorry, do either 
of you gentlemen have any comments on that?
    So none of those assets are really handed over, which I 
think should be, directly to your agencies, to your efforts. Is 
that correct?
    General Alles. If it is an asset we can utilize, yes, we 
can seize it and use it internally in the organization. We have 
in the past.
    Mr. Marino. You mean, ``an asset,'' that could be a boat, 
that could be an airplane, that could be weapons. Is it ever 
cash?
    Admiral Lee. No. Cash is going to be turned in.
    Mr. Marino. I see.
    So, given the fact that the biggest problem we have here in 
this country right now is revenue flow, particularly $17 
trillion in debt, but I think it is critical that agencies such 
as yours should at least reap part of that benefit to hire more 
personnel, to purchase more equipment.
    So that segues into my next question: If you each had a 
choice of what piece of equipment you would like to have more 
of, could you please share that with us?
    Admiral, you can start, and then move down the line, 
please.
    Admiral Lee. Yes, sir. Thank you for that question.
    We all have our wish list. Right now, our wish list is to 
recapitalize our deepwater fleet that is aging and going off-
line with great speed. Without that deepwater fleet, we will 
not have the capability to push our borders downrange, in this 
case the Transit Zone, and conduct maritime operations that 
really have an impact on our Nation's security.
    We know through past practice that the most effective way 
to take narcotics off the streets of the United States is to 
intercept those narcotics out of its shipping point, at its 
sources, down in the Transit Zone. We get the cocaine and 
marijuana in its largest quantities, in its purest form.
    When we seize operators in the Transit Zone, the intel that 
we get from those operators to feed back into the intelligence 
community is the purest we can get. Those folks are only one or 
two layers down from the cartels themselves. Once those 
narcotics are delivered back landside and it is broken up into 
smaller packages and delivered across the border landside, 
those operators are so far removed, we get limited intel out of 
those.
    So the bottom-line answer to your question is we need the 
funds to recapitalize our deepwater fleet so we can continue to 
push our borders out where they need to be.
    Mr. Marino. Sir, please.
    General Alles. From my standpoint, sir, our current biggest 
need is recapitalizing our UH-60 fleet. Those are currently 
expiring from service. They are actually the oldest UH-60s in 
service in the United States.
    After that is our multi-role enforcement aircraft that we 
are currently procuring; our coastal interceptor vessels that 
we are due to procure next year. I would just mention the TARS 
radar system, Tethered Aerostat Radar System, is used along the 
Southern Border to interdict people that are attempting to 
cross the border illegally.
    Mr. Marino. Thank you.
    Anyone else? Mr. Caldwell or Captain Woodring.
    I see I only have 30 seconds left. Have any of you seen any 
connection between the drug cartels, the trafficking of drugs, 
and/or terrorists or potential terrorism? Have you actually 
seen any of those cross paths?
    Admiral Lee. I do not have an anecdote from the Coast Guard 
point, sir.
    Mr. Marino. Okay.
    General Alles. I think as we look at Mexican drug cartels, 
we are concerned. Particularly as we look at the Iranian 
influence into Mexico, it would be one of our concerns.
    Mr. Marino. Thank you very much, gentlemen. I will be there 
pitching for you every step of the way.
    I yield back. Thank you, Chairwoman.
    Mrs. Miller. I thank the gentleman for his questions.
    I thank the admiral for mentioning again about 
recapitalizing your deepwater fleet. Again, in an effort for 
this committee to help you, we are going to be thinking what we 
can do as we get into the next appropriations season on that. 
Because we are reaching a critical juncture, as you are well 
aware, with the Coast Guard of not being able to meet their 
mission that we have tasked you with and loaded you up since 9/
11 and yet are not really resourcing you as we need to.
    The Chairwoman recognizes the gentleman from Texas, Mr. 
O'Rourke.
    Mr. O'Rourke. Thank you, Madam Chairwoman.
    I am hoping to get a concise answer to the question posed 
in the title of the hearing, in terms of what a secure maritime 
border looks like.
    This subcommittee and the full committee of which we are a 
part has decided, when it comes to land borders, as imperfect a 
measure as this is, we have decided on operational control and 
have decided that 90 percent operational control at our land 
borders is a sufficient level to protect the public safety and 
interest, and it prevents us from overspending and receiving 
diminishing returns as a result.
    Is there--and I will start with Mr. Caldwell--is there 
something like that for maritime security?
    In your answer to the Ranking Member's question about 
maritime domain awareness, you included some criteria that seem 
out of our control. You know, we are somewhat dependent on 
international partners, issues that take place away from our 
ports. What is within our domain of influence and control that 
we can hold the admiral, the commissioner accountable for, that 
we can use to understand how wisely we are spending taxpayer 
dollars?
    Mr. Caldwell. Thank you.
    In terms of the concept of operational control, I cannot 
say I have seen something like that for the maritime domain. 
Generally, what we are looking at is drug seizures, either in 
tonnage or as a rate of estimates of what the total flow is.
    In terms of the criteria, I think it is hard to give a 
really concise answer because you want the criteria to capture 
some of the other things we worry about in the maritime domain, 
not just terrorists, not just drugs, not just illegal migrants, 
but maybe some other things out there.
    As you know, Coast Guard has a broader mission, too, in 
terms of environmental safety. You don't want oil spills. You 
don't want--you know, recovery from disasters in ports, a lot 
of other things, as well.
    Mr. O'Rourke. For the commissioner, you know, just 
anecdotally getting the information in terms of tonnage seized, 
hearing you describe what is involved in executing your 
mandate, it sounds like you are being very effective with your 
resources.
    What is a good way for this committee to know that for 
sure, to, again, ensure that we are holding you and the men and 
women who serve under you accountable and that we are getting 
true value for taxpayer dollars spent, and if there is a 
request for additional resources, we know how to gauge what 
those dollars will buy and understand what the return should be 
back from that investment?
    General Alles. I think we can measure, you know, those--you 
mentioned a couple of specifics, sir. We can measure the 
performance of our fleet based on what it does. So, I mean, I 
can tell you, for instance, a P-3, for each hour it flies in 
the Tran Zone, it delivers about $1.2 million worth of 
cocaine--a pretty good metric for the platform. Similar for the 
UAVs working down in that Transit Zone. I can use those kind of 
metrics to assess performance when it comes to drug 
interdiction. I can look at it in terms of illegal immigration 
flows, as far as some accountability there.
    I would offer, though, that the, really, MDA metric--or, 
not the MDA--the maritime security metric, really, I don't find 
a single metric as being adequate there. It is really going to 
be a combination of things inside of a risk-based approach that 
talks about things like intelligence, the enforcement 
statistics you already mentioned, maritime events, technology 
integration, and then risk analysis.
    We look at--our organization internally measures each air 
branch yearly by what it performs, in terms of what it turns 
out in terms of vehicles, drugs, cash, illegal immigration 
flow, those kind of things, to decide where we are most 
effectively positioned. Based on that analysis, we will move 
personnel or move aircraft or vessels based on that 
performance.
    Mr. O'Rourke. I guess, for Admiral Lee to continue with 
this line of questioning, I believe either you or the 
commissioner mentioned that during--or, as a result of the 
sequester and fewer flight hours, fewer resources deployed, we 
saw less tonnage interdicted. From the commissioner's answer 
just now to my question, it seems like if we spent more, we 
would interdict more, but that is certainly not limitless.
    So, again, where do we want to be? Because we could spend 
unlimited dollars and never get there unless we know what the 
goal is.
    Admiral Lee. Thank you for that question, sir.
    ONDCP's goal in terms of tonnage removed is about 36 
percent. Last year, we only removed 13.4 percent--the 
interagency. I am not talking just about the Coast Guard, but 
that is the interagency writ large.
    Mr. O'Rourke. That is all illegal drugs?
    Admiral Lee. Illegal drugs.
    Mr. O'Rourke. Okay.
    Admiral Lee. Here, let's just talk cocaine for a second. 
Last year--and I am just giving you rough estimates. Last year, 
we estimate that the source countries, which are Bolivia, Peru, 
and Colombia, produced and shipped about 600 metric tons of 
cocaine. We, the U.S. Coast Guard, seized about 78 metric tons, 
which was down significantly from the previous year.
    So we received 78 metric tons. Just by virtue of another 
bar to measure, back in 2008, which was a banner year for us, 
we seized 166 metric tons. The interagency and our partner 
nations seized about an equal amount. Twenty metric tons of 
that was seized at the border. Where is the rest of it going? 
That is the real metric. They ship 600. We, collectively, 
stopped 124 metric tons.
    I would submit, sir, that the real metric that the United 
States needs to be measuring is not how much we are seizing, 
but what is the impact to organized crime of that that we do 
seize? How much money are we taking out of their pockets, and 
how is that affecting instability downrange in our nations 
south of us?
    We have to keep our eye on that because it is a National 
security concern. We don't want any more nations down south of 
us to get to the point such that we have in Honduras right now, 
where they have the highest murder rate per capita of any 
country in the world. Right now, 91 persons per 100,000 are 
murdered year-to-year. The United States right now, to give the 
other benchmark, is 4.7 per 100,000.
    It is vitally important that we keep the pressure on those 
transnational organized criminal networks, those cartels. If we 
back away from that mission, if we stop taking that dope off of 
the street by way of seizing it in large quantities in the 
Transit Zone, we will fail in our National strategy.
    Mr. O'Rourke. Thank you.
    Thank you, Madam Chairwoman.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman now recognizes the gentleman from South 
Carolina, who is looking particularly dapper, all in an effort 
to raise awareness of men's prostate cancer.
    Mr. Duncan. That is exactly right. November is prostate and 
pancreatic cancer month, and I support this in memory of State 
Representative David Umphlett, a good friend of mine that died 
June 2011 of pancreatic cancer. So thanks for recognizing that.
    Sitting here thinking about the cooperation that we have 
had with the country of Colombia and the impact it has had on 
really knocking back the amount of cocaine produced and the 
activity of the cartel, and really just rhetorically thinking 
about how that could be applied to Nicaragua and Honduras and 
some of the other Latin American countries, as well, it is 
really not my line of questioning but it is something that I 
think we need to talk about.
    Admiral Lee, you raised that awareness with your comments 
just now.
    I want to shift to the UAVs that are being utilized by both 
the Coast Guard and the CBP, because it is interesting to folks 
back in my district how they are utilized. There is a lot of 
groovy technology out there.
    So, Admiral Lee, can you discuss how the UAVs are being 
used? I know a Predator B has just been tasked to California to 
help with the pangas, and, also, I understand some of the 
cutter technology for launching and recovering some of those 
aircraft possibly.
    So if you could touch base on what you are doing with UAVs, 
whether they are cost-effective, whether they are operational-
effective.
    Admiral Lee. Yes, sir.
    I stated earlier we are still in the test and evaluation 
phase for operating our UASs off of our cutters. We are going 
into Phase 2 of that test and evaluation next month off of the 
Cutter Stratton.
    The Predators are being used by my counterpart here, 
General Alles, so I defer to him for more specificity on that 
program.
    Mr. Duncan. Let me ask you this before we go to 
Commissioner Alles. How are they being flown? Are they being 
flown remotely out of--like, the CBP flies those UAVs out of 
South Dakota or somewhere. How is the Coast Guard flying those? 
Are you flying them from shipboard controls, or is that on 
land-based pilots?
    Admiral Lee. Yes, sir, so far, we are launching and 
retrieving from aboard ship.
    Mr. Duncan. Okay. So you are recovering the aircraft on a 
cutter?
    Admiral Lee. Yes, sir.
    Mr. Duncan. Okay. That is interesting. I would love to see 
that someday.
    Commissioner Alles, could you respond?
    General Alles. Yes, sir. So, just for clarification, the 
Coast Guard participates with us in the Predator program as 
pilots in the program actually flying the aircraft and 
operating the aircraft. Then the actual shipborne devices he is 
talking about I think have been the ScanEagle.
    Correct?
    Admiral Lee. ScanEagle, yes.
    General Alles. Yeah. So that is a different UAV than we are 
using.
    Mr. Duncan. Right.
    General Alles. So, primarily, our UAVs are used along the 
borders. In fact, they are restricted by FAA certificates of 
authorization to the borders, within about 75 miles of the 
borders.
    Our primary efforts, our UAV bases are in Corpus Christi, 
Cape Canaveral, Sierra Vista, which is where Fort Huachuka is 
down in Arizona, and then also up in Grand Forks, North Dakota. 
So the bulk of our effort goes along the Southwest Border in 
the Rio Grande Valley, in the Arizona area, New Mexico, other 
parts of Texas, and then, after that, some limited patrols off 
the California coast.
    We are doing more Transit Zone operations with the UAVs, 
and then also along the Northern Border. We use those using a 
synthetic aperture radar to do what is called change detection, 
which can actually detect border intrusions in low-traffic 
zones. So we use that actual change detection radar in our UAVs 
along our low-traffic areas in Texas and New Mexico, Arizona, 
and also along the Northern Border to basically see if we are 
having any activity.
    Mr. Duncan. Yes, sir. I visited the program out in the 
Tucson sector and was highly impressed with what I was learning 
there. That was a Predator B, I believe.
    But I guess we are talking about maritime. So you are 
flying off the coast of California to help with the panga 
interdiction. Anywhere else with maritime? Out of Corpus 
Christi, I am assuming.
    General Alles. So it is primarily--we do some operations 
out of Corpus Christi over the water. We are not seeing a lot 
of traffic there for interdiction. We have done operations off 
the Florida coast. Again, not seeing a lot of traffic for 
interdiction, plus having those maritime assets out there that 
can work more easily.
    So, again, along the coastal areas of the United States, I 
am still working with the FAA to get more unlimited use of the 
UAV in those areas. So we haven't used them as much there as we 
have over land or in the Transit Zone. So we are still working 
those particular issues on the FAA side. We are making 
progress, good progress, with them too.
    Mr. Duncan. Let me pivot back to Admiral Lee.
    Are we seeing the use of UAVs out of some of our ports, 
say, in El Salvador, to replace any of the P-3 flights, manned 
flights? Are they more cost-effective and efficient, or are 
they similar cost?
    Admiral Lee. Well, the Coast Guard doesn't fly P-3s. We fly 
C-130s. But the bottom line is, again, we are still in the test 
and evaluation phase. We do offer personnel for the Predator 
program that General Alles is running.
    I would have to get back with you for questions for the 
record if you want more specificity on it than that. That is 
all I can offer to you, sir.
    Mr. Duncan. Right. Well, thank you for that.
    [The information follows:]

    The Coast Guard is not yet replacing manned aircraft operations 
with unmanned aircraft systems (UAS) because the Service is in pre-
acquisition for a land-based UAS. Until the state of technology can 
accommodate all Coast Guard missions, the Service will continue to 
collaborate with Customs and Border Protection (CBP) and conduct 
maritime security missions as part of the joint UAS program.
    Notionally speaking, UAS can be a more cost-effective and efficient 
option than their manned counterparts, but this is highly dependent on 
the specific system and payloads that are ultimately procured, as well 
as the type of flight operations that are required.

    Mr. Duncan. Madam Chairwoman, I know that UAVs can fly a 
lot longer. They can stay on station 24 hours or longer, the 
new technology. It just seems like a great platform for drug 
interdiction because that is a 24/7 attempt to smuggle drugs in 
the country.
    So I thank the gentlemen for what they do, and I want to 
see use of more technology as we can put it in the field and 
apply it under the budget constraints that we have.
    With that, I yield back.
    Mrs. Miller. The Chairwoman now recognizes the gentlelady 
from Hawaii.
    Ms. Gabbard. Thank you very much, Chairwoman Miller and 
Ranking Member Jackson Lee. I appreciate the opportunity to 
discuss these very important issues of maritime security. I 
would like to thank our guests for being here today and sharing 
their own expertise and insights on these issues.
    I would like to follow up a little bit on Mr. Duncan's 
questions regarding the UAV and UAS systems.
    Admiral Lee, if you could speak in a little bit more detail 
about the test and eval process that the Coast Guard is 
undergoing with these systems now? You are saying you are about 
to move into Phase 2. If you could speak about these different 
phases.
    I am specifically interested if any of these tests are 
being conducted in District 14 currently.
    Admiral Lee. No, the tests right now are not being 
conducted off of District 14. The next test is going to be 
conducted off of Wallops Island off of the Coast Guard Cutter 
Stratton.
    I could read to you the paragraph that my staff prepared 
for me on this, if you would desire. I am sorry I can't right 
off the cuff give you the specificity that you are looking for. 
But let me just read this to you.
    It says, ``The Coast Guard completed UAS demonstrations 
aboard the Cutter Stratton in August of 2012''--that was Phase 
1--``and Bertholf in May of 2013.'' That was Phase 2 alpha.
    ``Phase 1 focused on the basic engineering, installation, 
certification, and operation of UAS. Phase 2 alpha applied 
lessons learned in an actual shipboard deployment, along with 
an embarked MH-65''--that is one of our Dauphin helicopters--
``as envisioned in our CONOPS. The final demonstration, which 
will be Phase 2 bravo, will explore a variety of sensor 
payloads, continue to validate CONOPS, and provide tangible 
data on how the UAS contributes to our National Security 
Cutters' overall effectiveness.''
    Ms. Gabbard. Thank you.
    The Container Security Initiative really centered around 
U.S.-bound maritime containers that potentially pose a risk 
being identified and inspected--I think you and General Alles 
spoke about this earlier--as they are leaving international 
ports.
    What specifically is the Coast Guard's role in that 
program? I was wondering if you can speak on the benefit of 
having Coast Guard personnel on the ground in foreign ports as 
opposed to being able to interact remotely from here.
    Admiral Lee. All right. I hope I understood your question.
    Going back to the layered approach that we use for trying 
to provide a maritime secure border, we start overseas in our 
foreign ports. We have an IPSP program, that is the 
International Port Security Program, whereby we send inspectors 
to--there are 157 ports internationally that ship goods to the 
United States. We visit those ports routinely to ascertain what 
kind of security measures they have in place, and do they meet 
the requirements that satisfy our needs for receiving those 
shipments on those vessels entering through their ports and 
waterways?
    The next layer is that layer in between, which is the open 
sea. That is where we have patrol craft that, if we get 
intelligence that something is inbound that might be a threat 
to our National security, we can intercept, board, and deal 
with it.
    Then, of course, the last layer is here in our own ports, 
whereby Customs and the Coast Guard team up with the port 
directors to do this Port Security Program here.
    I defer to the general for----
    Ms. Gabbard. Thanks.
    Before, General, you comment on that, I just had a quick 
question about CBP's Office of Air/Marine not having any 
presence or operations in my home State of Hawaii. Considering, 
obviously, our geographic location and some of the challenges 
that we face with both air and marine security there, I am 
wondering about your lack of presence there. Is it a lack of 
threats or resources? Or if you could explain why you don't 
have a presence there.
    General Alles. Yes, ma'am. As we looked at the overall U.S. 
posture of air and marine assets and where we consider the most 
likely avenues of approach and highest-threat locations, Hawaii 
was not one that we considered a high-threat location. Of 
course, it is a fiscal question of how many offices we can 
actually stand up. I mean, that is the basic issue for Hawaii 
and why we have not been based there to that point.
    It is the same, similar situation as we have in Alaska. We 
have no presence up there. So, in this case, we are relying on 
the Coast Guard presence that is already established there.
    Ms. Gabbard. Do you have any unmanned aircraft systems 
deployed in the region, either in the Pacific and, really, 
looking out past the West Coast?
    General Alles. No. No, ma'am. They are not deployed that 
far afield.
    Ms. Gabbard. Okay. Thank you.
    Thank you.
    Mrs. Miller. I thank the gentlelady.
    Before we conclude, the Ranking Member has a follow-up 
question.
    Ms. Jackson Lee. Madam Chairwoman, thank you so very much.
    To follow up some of the comments made by colleagues, I 
have always opposed this sequester, as it impacts the assets 
that, General, both you have and, Admiral, both you have. As 
someone who is asking the Budget Committee, chaired by the 
Chairman of the Budget Committee, Mr. Ryan, to remove the 
sequester, let me ask you about these decreased assets.
    Admiral, quickly, you said it was that number from--it 
appears in my head, 36 to 13 percent. Impacts on the kinds of 
assets--not assets, but the kinds of ability to be able to get 
a certain amount of metric tons out of the cycle.
    General, I am asking you, as well, the impact that it has 
on the Air/Marine when you have cut the assets and also cut 
human resources.
    Finally, Captain Woodring, if you would speak to the impact 
and the value of Federal dollars, both in terms of security and 
otherwise, in ports as large as yours.
    Gentlemen, if you could, what is the sequester, what are 
the diminished resources doing to the basic mission for both of 
you and the assets? Responding to my colleague's question of 
assets not being in many places where you might want them.
    Admiral Lee, if you would start first.
    Admiral Lee. Yes, ma'am.
    As a result of the sequester, we had to curtail operations 
25 percent across the board for Coast Guard operations. Most of 
that came out of our Transit Zone operations because that is 
where most of the fuel money goes. That was a 32 percent 
reduction last year as a direct result of the sequester. That 
obviously had an impact on the tonnage that we were able to 
remove.
    Ms. Jackson Lee. Thank you very much.
    General.
    General Alles. On the CBP side, the primary impact was to 
our flying-hour program. It substantially reduced that 
probably----
    Ms. Jackson Lee. I am sorry, flying what?
    General Alles. Flying-hour program, the amount of hours we 
fly our aircraft per year. I think we are at about a 10,000-
hour impact as a result of the sequester.
    Ms. Jackson Lee. Help us, because hours and flying--when 
you reduce 10,000 hours of flying, how does that diminish your 
service and diminish the security here in the United States?
    General Alles. So, for instance, as a metric, any hour I 
lose in the Transit Zone is $1 million of cocaine that gets by 
us. So any P-3 hour I have to cut back on, which there were 
cutbacks as a result, there is going to be cocaine that passes 
through.
    Ms. Jackson Lee. Any hour lost, you lose $1 million in 
collection of metric tonnage. Is that----
    General Alles. In the Transit Zone, yes, ma'am, that is 
correct. Now, that is just for the P-3s. You have to be 
careful. That is just for the P-3 aircraft.
    Ms. Jackson Lee. The other aircraft you have been able to--
--
    General Alles. Well, the other hour impacts, the other 
aircraft, they affect things like illegal immigration flow and 
those. Those I can't give you numbers. I can take that for the 
record, if you would like me to, to get those numbers.
    Ms. Jackson Lee. I would appreciate that greatly, General. 
Thank you for your service.
    Admiral Lee, thank you.
    Captain Woodring, you were going to say how Federal funds 
impact your work.
    Captain Woodring. Yes, ma'am. The Federal funding for the 
port is mostly through the Port Security Grant Program. We also 
received recently a TIGER grant to expand one of our docks. 
Again, industries interested in commerce, the economy, moving 
cargo, and making money. Obviously, security impacts that, or a 
lack of security could impact that.
    I can tell you, as the Port of Houston Authority, since the 
inception of the Port Security Grant Program, we have received 
over $60 million in funding. It has bought things such as an 
expanded port coordination center for us, vehicles, our three 
new fireboats that just came on-line, a lot of fiber 
infrastructure, a lot of TWIC card readers and things of that 
nature.
    On the Port Security Grant Program, we would like to see 
the funding level not shrink any further. We would also like to 
see the program kept separate from being bundled together with 
other grant programs that we would then have to compete for.
    Ms. Jackson Lee. So it has been vital to the existence and 
the workings and operations of the Port of Houston.
    Captain Woodring. Yes, ma'am. Those other things that I 
mentioned earlier with the Houston Ship Channel Security 
District, they were providing matching funds for port security 
grants. So, again, that may not have come to the Port of 
Houston Authority specifically, but certainly benefited the 
greater Port of Houston.
    Ms. Jackson Lee. Madam Chairwoman, thank you.
    Again, I want to thank everyone for their service, but 
particularly I want to acknowledge Admiral Lee and General 
Alles and Captain Woodring, and I certainly thank Director 
Caldwell. I thank the gentlemen for their service to this 
Nation.
    With that, Madam Chairwoman, I yield back.
    Mrs. Miller. Thank you very much, all of you gentlemen, so 
very, very much. Again, we so appreciate your service to the 
Nation and, certainly, the men and women that serve under you 
24/7 and what they do for homeland security and protecting our 
Nation and our country. We think about it all the time.
    I appreciate many of the questions and the answers today, 
particularly about resourcing and how important it is for us to 
be able to give the resources as we can within the confines of 
a restrictive budgetary environment for all of the various 
missions that we have tasked you all with.
    So we thank you for that.
    I will also note that, pursuant to committee rule, the 
hearing record will be held open for 10 days if there are any 
other Members of the committee that might have additional 
questions for the witnesses.
    With that, again, we thank you all so very, very much for 
your time and for your service and for being here today.
    The committee will stand adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
